No. _____
IN THE

Supreme Court of the United States
————
WILLIAM D. BRICE,
Petitioner,
v.
CALIFORNIA FACULTY ASSOCIATION,
Respondent.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
————
JOINT PETITION FOR WRIT OF CERTIORARI
————
JAMES G. ABERNATHY
REBEKAH C. MILLARD
FREEDOM FOUNDATION
P.O. BOX 552
Olympia, WA 98507
(360) 956-3482
jabernathy@
freedomfoundation.com
rmillard@
freedomfoundation.com
Counsel for Cook and
Masuo, Petitioners

MILTON L. CHAPPELL
Counsel of Record
AARON B. SOLEM
C/O NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION, INC.
8001 Braddock Road
Suite 600
Springfield, VA 22160
(703) 321-8510
mlc@nrtw.org
Counsel for All Petitioners
abs@nrtw.org
Counsel for William Hough

September 23, 2021
[Additional Caption Information On Inside Cover]

WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D.C. 20002

CHE’ S. COOK, ET AL.,
Petitioners,
v.
OREGON AMERICAN FEDERATION OF STATE, COUNTY,
AND MUNICIPAL EMPLOYEES COUNCIL 75,
Respondent.
————
WILLIAM HOUGH,
Petitioner,
v.
SERVICE EMPLOYEES INTERNATIONAL
UNION LOCAL 521,
Respondent.
————
STEVEN MASUO, ET AL.,
Petitioners,
v.
AMERICAN FEDERATION OF STATE, COUNTY, AND
MUNICIPAL EMPLOYEES INTERNATIONAL UNION,
AFL-CIO, ET AL.,
Respondents.

i
QUESTION PRESENTED
Petitioners are current and former public employees
in the States of California and Oregon who exercised
their First Amendment right not to join a union. Despite petitioners not being union members, their respective public employers seized portions of their
wages and, without their affirmative consent, transferred that money to the respondent unions. This
practice was invalidated in Janus v. American Federation of State, County, and Municipal Employees,
Council 31, 138 S. Ct. 2448, 2486 (2018), since “publicsector agency-shop arrangements violate the First
Amendment, and Abood [v. Detroit Board of Education, 431 U.S. 209 (1977)] erred in concluding otherwise.” Janus, 138 S. Ct. at 2478.
Petitioners brought lawsuits, some as class actions,
for refunds of the “agency fees” illegally taken from
them and other nonmember employees for decades
when they were “wrongly denied First Amendment
rights,” id., but limited the requested refunds to the
two-year statute of limitations period. The Ninth Circuit rejected petitioners’ claims and allowed respondent unions to keep all their ill-gotten gains because
“private parties may invoke an affirmative defense of
good faith to retrospective monetary liability under 42
U.S.C. § 1983, where they acted in direct reliance on
then-binding Supreme Court precedent and presumptively-valid state law.” Danielson v. Inslee, 945 F.3d
1096, 1097 (9th Cir. 2019), cert. den., 141 S. Ct. 1265
(2021) (App. I (App. 54-77)).

ii
The question presented is:
Whether an affirmative good faith defense denying
damages to the victims of First Amendment wrongdoing is faithful to the language and purpose of 42
U.S.C. § 1983 or to the principles of “equality and fairness” to all the parties involved?
PARTIES TO THE PROCEEDING
This joint petition seeks Supreme Court review of
four Ninth Circuit decisions that granted respondent
unions an affirmative good faith defense that denies
petitioners any damages within the two-year limitations period for violating their First Amendment
rights under Janus v. AFSMCE, Council 31, 138 S. Ct.
2448, 2486 (2018).
Petitioners are William D. Brice, Che’ S. Cook,
Clifford H. Elliott, Bethany Harrington, William
Lehner, Carmen Lewis, Trudy Metzger, William
Hough, Steven Masuo, Gloria Carlson, Jacyn Gallagher, Lindsey Hart, Craig Leech, Matthew Puntney,
Bryan Quinlan, Marina Shadrin, Misty Staebler, and
Betty Sumega.
Respondents are the California Faculty Association;
Oregon American Federation of State, County, and
Municipal Employees Council 75; Service Employees
International Union Local 521; American Federation
of State, County and Municipal Employees International Union, AFL-CIO; AFSCME, Local 3336; Association of Engineering Employees of Oregon; City of
Cornelius Employees Union, AFSCME Local 189;
Marion Employees Association, Local 294 of Oregon

iii
Public Employees Union; Multnomah County Employees Union, Local 88, AFSCME, AFL-CIO; National Education Association of the United States; Oregon Education Association; Oregon Public Employees Union (OPEU), Linn County Local 390; Service
Employees International Union, CTS, CLC; Service
Employees International Union Local 503, Oregon
Public Employees Union; Southern Oregon Bargaining Council; and Three Rivers Education Association.
Petitioners were all plaintiffs in their respective district courts and appellants in the Ninth Circuit. Respondents were all defendants in their respective district courts and appellees in the Ninth Circuit.
The following persons or entities were parties in the
district court proceedings, but were not parties at the
Ninth Circuit and are not parties here:
J. Scott English was a plaintiff in the district court
in Cook, but did not appeal the dismissal of his lawsuit. Kate Brown, in her official capacity as Governor
of the State of Oregon, and Katy Coba, in her official
capacity as Director of the Oregon Department of Administrative Services, were defendants in the Cook
case who were dismissed by the district court without
objection from the Cook plaintiffs.
The Santa Clara Valley Transportation Authority,
Edmund G. Brown, Jr., in his official capacity as Governor of the State of California, and Xavier Becerra,
in his official capacity as Attorney General of the
State of California were defendants in the Hough case
who were voluntarily dismissed by William Hough.

iv
Jenni Chambers, lead plaintiff in the district court
in Masuo (then captioned Chambers v. AFSCME International Union, AFL-CIO), and Terry Godwin did
not appeal the dismissal of their lawsuit.
CORPORATE DISCLOSURE STATEMENT
A corporate disclosure statement is not required under Supreme Court Rules 14(b)(ii) and 29.6 because
no petitioner is a corporation.
STATEMENT OF RELATED PROCEEDINGS
There are no directly related proceedings arising
from any of the same trial court cases involved in the
judgments sought to be reviewed by this Joint Petition.

v
TABLE OF CONTENTS
Page
Question Presented ...................................................... i
Parties to the Proceeding ........................................... ii
Corporate Disclosure Statement ............................... iv
Statement of Related Proceedings ............................. iv
Table of Authorities................................................. viii
Joint Petition for Writ of Certiorari ........................... 1
Introduction ................................................................. 1
Opinions Below ............................................................ 4
Jurisdiction .................................................................. 5
Constitutional and Statutory Provisions Involved .... 5
Statement ................................................................... 6
A. Legal Background.............................................. 6
B. Facts and Procedural History ........................... 9
Reasons for Granting the Joint Petition .................. 15
I. The Decisions Below Conflict with the Court’s
Precedents ........................................................... 18
A. Allowing a good faith defense imposes a stateof-mind-requirement for First Amendment compelled speech violations and ignores the Court’s
holding in Janus .................................................. 18
B. Policy interests in “equality and fairness” do
not justify a good faith defense............................ 20

vi
TABLE OF CONTENTS
Page
C. Even if the principles of “equality and fairness” are the applicable standard, the Ninth Circuit failed: i) to apply those principles to all the
parties involved; ii) to balance the competing equities; or iii) to devise a fair remedy for those
wrongly denied their First Amendment rights. .. 27
II. This Case is Exceptionally Important. ................ 30
Conclusion ................................................................. 31
Appendix:
A. Memorandum, United States Court of
Appeals for the Ninth Circuit, Brice v.
California Faculty Ass’n ......................... App. 1
B. Memorandum, United States Court of
Appeals for the Ninth Circuit, Cook v.
Oregon AFSCME Council 75 ................... App. 3
C. Memorandum, United States Court of
Appeals for the Ninth Circuit, Hough v.
SEIU Local 521 ........................................ App. 6
D. Order, United States Court of Appeals
for the Ninth Circuit, Masuo v. AFSCME
International Union, AFL-CIO ............... App. 8
E. Order, United States District Court for
the Central District of California, Brice v.
California Faculty Ass’n ....................... App. 10

vii
F. Opinion and Order, United States
District Court for the District of Oregon,
Cook v. Oregon AFSCME Council 75 .... App. 12
G. Order, United States District Court
for the Northern District of California,
Hough v. SEIU Local 521 ...................... App. 33
H. Opinion and Order, United States
District Court for the District of Oregon,
Chambers v. AFSCME International Union,
AFL-CIO ................................................ App. 36
I. Opinion, United States Court of
Appeals for the Ninth Circuit, Danielson v.
Inslee ...................................................... App. 54

viii
TABLE OF AUTHORITIES
Page(s)
CASES
Abood v. Detroit Bd. of Educ.,
431 U.S. 209 (1977) ...................................... passim
Akers v. Md. State Educ. Ass'n,
990 F.3d 375 (4th Cir. 2021) ................................16
Arizona v. Gant,
556 U.S. 332 (2009) ................................................7
Babb v. California Teachers Ass'n,
378 F. Supp. 3d 857 (C.D. Cal. 2019) ..................10
Board of Regents v. Roth,
408 U.S. 564 (1972) .............................................23
Bostock v. Clayton County,
140 S. Ct. 1731 (2020) .........................................21
Clement v. City of Glendale,
518 F.3d 1090 (9th Cir. 2008) .................. 11, 15, 16
Daniels v. Williams,
474 U.S. 327 (1986) ........................................18, 19
Danielson v. Inslee,
945 F.3d 1096 (9th Cir. 2019), ..................... passim
Diamond v. Pa. State Educ. Ass'n,
972 F.3d 262 (3d Cir. 2020) ..................... 16, 19, 29
Doughty v. State Emps. Ass'n of N.H., SEIU Loc.
1984, 981 F.3d 128 (1st Cir. 2020) ......................16

ix
TABLE OF AUTHORITIES
Page(s)
Duncan v. Peck,
844 F.2d 1261 (6th Cir. 1988) ..............................15
Guidry v. Sheet Metal Workers Nat'l Pension Fund,
493 U.S. 365 (1990) .............................................20
Imbler v. Pachtman,
424 U.S. 409 (1976) ..........................................8, 24
Janus v. AFSCME,
138 S. Ct. 2448 (2018) .................................. passim
Janus v. AFSCME Council 31,
942 F.3d 352 (7th Cir. 2019) ................................16
Jordan v. Fox, Rothschild, O'Brien & Frankel,
20 F.3d 1250 (3d Cir. 1994) .................................15
Knox v. SEIU, Loc. 1000,
567 U.S. 298 (2012) ................................................6
Lee v. Ohio Educ. Ass'n,
951 F.3d 386 (6th Cir. 2020) ................................16
Lugar v. Edmondson Oil Co.,
457 U.S. 922 (1982) ..............................................16
Nieves v. Bartlett,
139 S. Ct. 1715 (2019) ..........................................18
Ogle v. Ohio Civ. Serv. Emps. Ass'n,
951 F.3d 794 (6th Cir. 2020) ................................16
OSU Student Alliance v. Ray,
699 F.3d 1053 (9th Cir. 2012) ..............................19

x
TABLE OF AUTHORITIES
Page(s)
Owen v. City of Indep.,
445 U.S. 622 (1980) ...................................... passim
Owen v. City of Indep.,
589 F.2d 335 (8th Cir. 1978) ................................23
Parratt v. Taylor,
451 U.S. 527 (1981) ........................................18, 19
Perry v. Sindermann,
408 U.S. 593 (1972) .............................................23
Pinsky v. Duncan,
79 F.3d 306 (2d Cir. 1996) ...................................15
Rehberg v. Paulk,
566 U.S. 356 (2012) ................................................8
Richardson v. McKnight,
521 U.S. 399 (1997) ..........................................8, 16
SCA Hygiene Products Aktiebolag v. First
Quality Baby Products, LLC,
137 S. Ct. 954 (2017) ...........................................21
Tenn. Valley Auth. v. Hill,
437 U.S. 153 (1978) .............................................21
Tower v. Glover,
467 U.S. 914 (1984) ..........................................8, 21
United States v. O'Brien,
391 U.S. 367 (1968) ..............................................19

xi
TABLE OF AUTHORITIES
Page(s)
Vector Rsch., Inc. v. Howard & Howard Att'ys,
P.C., 76 F.3d 692 (6th Cir. 1996) .........................15
Wholean v. CSEA SEIU Loc. 2001,
955 F.3d 332 (2d Cir. 2020) .................................16
Wilson v. Garcia,
471 U.S. 261 (1985) .............................................28
Wyatt v. Cole,
504 U.S. 158 (1992) ................................ 8, 9, 16, 31
Wyatt v. Cole,
994 F.2d 1113 (5th Cir. 1993) ..............................15
CONSTITUTIONAL AMENDMENTS
U.S. Const. amend. I ................................... passim
FEDERAL STATUTES AND RULES
18 U.S.C. § 242 ....................................................18
28 U.S.C. § 1254(1) ...............................................5
42 U.S.C. § 1983 .......................................... passim
S. Ct. Rule 12.4 .....................................................1
S. Ct. Rule 14(b)(ii) ............................................. iv
S. Ct. Rule 29.6 ................................................... iv

xii
STATE STATUTES
Cal. Civ. Proc. Code § 335.1 .................................2
Or. Rev. Stat. § 12.110(1) ....................................2
OTHER AUTHORITIES
National Right to Work Legal Defense Foundation,
"Right to Work States" (2021), https://
www.nrtw.org/right-to-work-states .....................28
Matthiesen, Wickert & Lehrer, S.C., "Statute of
Limitations for All Fifty States" (2021),
https://www.mwl-law.com/wp-content/uploads/2018/02/SOL-CHART.pdf ...........................28

1
JOINT PETITION FOR WRIT OF CERTIORARI
William D. Brice, Che’ S. Cook, Clifford H. Elliott,
Bethany Harrington, William Lehner, Carmen Lewis, Trudy Metzger, William Hough, Steven Masuo,
Gloria Carlson, Jacyn Gallagher, Lindsey Hart, Craig
Leech, Matthew Puntney, Bryan Quinlan, Marina
Shadrin, Misty Staebler, and Betty Sumega petition
the Court to grant a writ of certiorari to the United
States Court of Appeals for the Ninth Circuit in the
cases Brice v. California Faculty Ass’n, No. 19-56164,
Cook v. Oregon AFSCME Council 75, No. 19-35191,
Hough v. SEIU Local 521, No 19-15792, and Masuo v.
AFSCME International Union, AFL-CIO, No. 2035355. This joint petition is permitted by Supreme
Court Rule 12.4 and warranted because of the identity
of the legal issues and interests in these cases.
INTRODUCTION
The Ninth Circuit created an affirmative good faith
defense that denies the victims of First Amendment
violations any damages. It did so based on “equality
and fairness” to the violators of the First Amendment
without considering the victims 42 U.S.C. §1983 was
enacted to protect and remedy. The Court’s intervention is urgently needed to determine whether a good
faith defense that denies all damages to the victims of
wrongly denied First Amendment rights is faithful to
§ 1983’s language and purpose or to the principles of
“and fairness” to all the parties involved. This is a
question of exceptional importance to all citizens that
bring § 1983 lawsuits to remedy the violations of their
First Amendment rights, particularly the thousands

2
of nonunion public employees who were forced to subsidize union speech in violation of the First Amendment.
Petitioners are nonunion public employees in California and Oregon who were for years compelled as a
condition of their employment to subsidize the respondent unions’ speech. In 2018, the Court overruled
Abood v. Detroit Board of Education, 431 U.S. 209
(1977) in Janus v. AFSCME, Council 31, 138 S. Ct.
2448 (2018), finding that compelling nonunion member employees to subsidize union speech violates the
First Amendment and that Abood erred in concluding
otherwise. Id. at 2478, 2486. Shortly before or soon
thereafter, petitioners sued on behalf of themselves
and, in some cases, other similarly situated employees
to recover the money that respondents took from
them, during the applicable two-year statutory limitations period, see Cal. Civ. Proc. Code § 335.1 or Or.
Rev. Stat. § 12.110(1), in violation of their First
Amendment rights.
Petitioners sued under 42 U.S.C. § 1983, which Congress enacted to provide a remedy for those who have
suffered constitutional violations. Naturally, petitioners’ claim sought damages or restitution for the respondent’s constitutional violations under the First
Amendment. After all, Janus held that identical compelled fee seizers violated public-sector employees’
First Amendment rights.
Nevertheless, the four district courts below dismissed petitioners’ claims because they decided as a
matter of law that unions had a good faith defense
that shielded them from retrospective money damages
for their First Amendment violations. A panel of the

3
Ninth Circuit in three almost identical unpublished
memoranda and another panel in an order granting
summary affirmance upheld the four district courts’
dismissals based on the Ninth Circuit’s earlier decision in Danielson v. Inslee, 945 F.3d 1096, 1097 (9th
Cir. 2019), cert. den., 141 S. Ct. 1265 (2021) (App. I
(App. 54-77).1
Danielson held that “private parties may invoke an
affirmative defense of good faith to retrospective monetary liability under 42 U.S.C. § 1983, where they
acted in direct reliance on then-binding Supreme
Court precedent and presumptively-valid state law.”
Id. at 1097 (App. 59). To justify this holding, the Danielson panel cited at 1099, 1103-04, 1105 (App. 62, 7375, 77) the union’s reliance interests—reliance interests that the Court already held in Janus were insufficient to retain Abood. Janus, 138 S. Ct. at 2484-86.
The Ninth Circuit’s holdings defy the Court’s precedent and cannot stand. The decision to import a onesided application of “equality and fairness” into petitioners’ First Amendment claims undermines the
Constitution and will have adverse consequences for
civil rights plaintiffs. If lower courts can manipulate
constitutional claims to achieve what they feel is the
best policy under a one-sided application of “equality
and fairness,” many victims of civil rights abuses will
be left without a remedy. It is therefore exceptionally
The Court denied the Danielson petition for certiorari during the 2020 term. 141 S. Ct. 1265 (2021). That petition did not
raise or challenge the “equitable and fairness” bases for granting
a good faith defense as the petition here does. See Cert. Pet., Danielson v. Inslee, No. 19-1130 (Mar. 12, 2020). The two petitions
are vastly different in scope and substance.
1

4
important that the Court take this case, overrule the
Ninth Circuit’s decisions, and direct the lower court to
remedy petitioners’ First Amendment violations
within the two-year limitations period.
OPINIONS BELOW
The opinions of the United States Court of Appeals
for the Ninth Circuit were each issued as a memorandum in Brice, Cook and Hough and an order in Masuo.
The three memoranda are designated “not for publication” but available at 846 Fed.Appx. 557 (Mem), 845
Fed.Appx. 671 (Mem), and 846 Fed.Appx. 540 (Mem),
respectively, and are reprinted in the Appendix at
App. A (App. 1-2) for Brice; App. B (App. 3-5) for Cook;
and App. C (App. 6-7) for Hough. The Masuo order is
unpublished and unavailable but reprinted in the Appendix at App. D (App. 8-9).
The United States District Court for the Central
District of California’s (In Chambers) Order in Brice
is unpublished and unavailable but reprinted in the
Appendix at App. E (App. 10-11). The United States
District Court for the District of Oregon’s Opinion &
Order in Cook is reported at 364 F. Supp. 3d 1184 (D.
Or. 2019), and reprinted at App. F (App. 12-32). The
United States District Court for the Northern District
of California’s Amended Order Granting Motion for
Summary Judgment in Hough is unpublished but
available at 2019 WL 1785414 (N.D. Cal. Apr. 16,
2019), amending typographical error in 2019 WL
1274528 (N.D. Cal. Mar. 20, 2019), and reprinted at
App. G (App. 33-35). The United States District Court
for the District of Oregon’s unpublished Opinion and
Order in Chambers (now Masuo) is reported at 450 F.

5
Supp. 3d 1108 (D. Or. 2020), and reprinted at App. H
(App. 36-53).
JURISDICTION
The various judgments of the Ninth Circuit in these
four cases were individually entered on April 27, April
28, and May 25, 2021. On March 19, 2020, the Court
extended the deadline to file any petition for a writ of
certiorari due on or after that date to 150 days. On
July 19, 2021, the Court rescinded that extension order, except that relevant lower court judgments issued
before July 19, 2021, would remain extended to 150
days from the date of that judgment or order. The
Court has jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
The United States Constitution’s First Amendment
provides: “Congress shall make no law respecting an
establishment of religion, or prohibiting the free exercise thereof; or abridging the freedom of speech, or of
the press; or the right of the people peaceably to assemble, and to petition the Government for a redress
of grievances.”
42 U.S.C. § 1983 provides in relevant part: “Every
person who, under color of any statute, ordinance, regulation, custom, or usage, of any State or Territory or
the District of Columbia, subjects, or causes to be subjected, any citizen of the United States or other person
within the jurisdiction thereof to the deprivation of
any rights, privileges, or immunities secured by the

6
Constitution and laws, shall be liable to the party injured in an action at law, suit in equity, or other
proper proceeding for redress * * *[.]”
STATEMENT
A.

Legal Background

1. In 2018, the Court held it violates the First
Amendment for states and unions to exact agency fees
from nonconsenting employees. Janus, 138 S. Ct. at
2486. In doing so, the Court recognized that the freedom of speech includes the freedom to refrain from
speaking—just as it protects the right to speak. Id. at
2463. For this reason, forcing individuals to subsidize
the speech of another private speaker creates “similar
First Amendment concerns.” Id. at 2464. And, the
Court found, a “‘significant impingement on First
Amendment rights’ occurs when public employees are
required to provide financial support for a union that
‘takes many positions during collective bargaining
that have powerful political and civic consequences.’”
Id. at 2464 (quoting Knox v. SEIU, Loc. 1000, 567 U.S.
298, 310–11 (2012)).
The Court thus held “public-sector agency-shop arrangements violate the First Amendment[.]” Id. at
2478. Unions therefore cannot “extract agency fees
from nonconsenting employees.” Id. at 2486. In addition, for a state and union to legally extract agency
fees from public-sector employees, those employees
must waive their First Amendment rights and affirmatively consent to pay. Id. None of the petitioners
waived their First Amendment rights and affirma-

7
tively consented to pay any moneys to the union respondents or their affiliates.
During the four-decade span between Abood and Janus, unions were allowed to exact vast amounts of
money for their expressive activities from nonunion
public employees’ wages. Id. As the Court noted in Janus, it is “hard to estimate how many billions of dollars have been taken from nonmembers and transferred to public-sector unions in violation of the First
Amendment.” Id. The Court likewise found “unions
have been on notice for years regarding this Court’s
misgiving about Abood.” Id. at 2484. Moreover, since
at least 2012, “any public-sector union seeking an
agency-fee provision in a collective-bargaining agreement must have understood that the constitutionality
of such a provision was uncertain.” Id. at 2485.
The Janus Court also determined “‘that [even
though] (public-sector unions) may view (agency fees)
as an entitlement [that] does not establish the sort of
reliance interest that could outweigh the countervailing interest that (nonmembers) share in having their
constitutional rights fully protected.’” Id. at 2484,
quoting Arizona v. Gant, 556 U.S. 332, 349 (2009).
2. Congress enacted § 1983 to give victims of constitutional violations a cause of action to vindicate their
constitutional rights in federal court. This purpose is
clear from § 1983’s text:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State * * * subjects, or causes to be subjected,
any citizen of the United States or other person
within the jurisdiction thereof to the depriva-

8
tion of any rights, privileges, or immunities secured by the Constitution and laws, shall be liable to the party injured in an action at law,
suit in equity, or other proper proceeding for
redress * * *[.]”
42 U.S.C. § 1983.
The statutory text “‘on its face admits of no immunities’ * * * [i]ts language is absolute and unqualified;
no mention is made of any privileges, immunities, or
defenses that may be asserted.” Owen v. City of Indep.,
445 U.S. 622, 635 (1980) (quoting Imbler v. Pachtman,
424 U.S. 409, 417 (1976)). Even so, the Court has
found that if an immunity or defense was “so firmly
rooted in the common law and was supported by such
strong policy reasons that Congress would have specifically so provided had it wished to abolish the doctrine” when it enacted § 1983, then a court can find an
immunity or defense. Richardson v. McKnight, 521
U.S. 399, 403 (1997) (quoting Wyatt v. Cole, 504 U.S.
158, 164 (1992)). However, courts “do not have a license to create immunities based solely on [their]
view[s] of sound policy,” Rehberg v. Paulk, 566 U.S.
356, 363 (2012), and thus “do not have a license to establish immunities from § 1983 actions in the interests of * * * sound public policy. It is for Congress to
determine whether § 1983 litigation has become too
burdensome.” Tower v. Glover, 467 U.S. 914, 922–23
(1984).
In the absence of the Court deciding whether, as a
matter of law, a good faith defense can be raised
against a § 1983 First Amendment claim, some Justices have suggested that “principles of equality and
fairness” might apply in answering that question in

9
certain situations. See Wyatt, 504 U.S. at 168. In this
void, the Ninth Circuit applied “equality and fairness”
in deciding the cases below and granted the union respondents a good faith defense to petitioners’ §1983
First Amendment action for damages. In doing so, the
Ninth Circuit failed to mention or recognize any
“equality and fairness” to the countervailing interests
of the nonmember petitioners in vindicating and remedying their wrongly denied First Amendment rights.
B.

Facts and Procedural History
1. Brice Petitioner

Petitioner William D. Brice is a professor at California State University Dominguez Hills in a unit of employees that respondent California Faculty Association (“CFA”) exclusively represents. Before Janus, although Brice was not a union member, he was compelled, as a condition of public employment, to pay
fees to CFA without his consent. CFA has not returned any of the fees it seized before Janus. See App.
A (App. 1-2); Br. of Appellant, Brice v. Cal. Fac. Ass’n,
No. 19-56164, Docket No. 10, pp. 4-6 (12-14 of 51) (9th
Cir., Jan. 2, 2020), available at 2020 WL 709469 at *4*6.
Five months after the Court’s holding in Janus,
Brice sued CFA under § 1983, alleging that the union
violated his First Amendment rights as recognized in
Janus, seeking damages or restitution for himself,
and a class of similarly situated employees, for the
agency fees CFA unconstitutionally exacted from
their wages before Janus during the two-year statutory limitations period. Id.

10
The district court dismissed Brice’s putative classaction complaint for the same reasons stated in Babb
v. California Teachers Ass’n, 378 F. Supp. 3d 857 (C.D.
Cal. 2019), appeal decision pending. App. E (App. 1011). The Babb court held the union as a matter of law
acted in good faith because it relied on Supreme Court
precedent and state law that had not yet been declared unconstitutional until Janus overruled Abood.
Babb, 378 F. Supp. 3d at 867, 870-73, 876.
2. Cook Petitioners
Petitioners Che’ S. Cook, Clifford H. Elliott, Bethany
Harrington, William Lehner, Carmen Lewis, and
Trudy Metzger are public employees employed by the
State of Oregon in bargaining units exclusively represented by respondent AFSCME, Council 75. Before
Janus, although the Cook petitioners were not union
members, they were compelled, as a condition of public employment, to pay fees to AFSCME, Council 75.
The union has not returned any of the fees it seized
before Janus. App. 12-13.
A week before the Janus decision, the Cook petitioners sued AFSCME, Council 75 under § 1983, alleging
that the union violated their First Amendment rights
by seizing fees from their wages without their consent,
and seeking damages or restitution for the fees the
union unconstitutionally exacted from their wages
during the two-year statutory limitations period. Id.
While Cook was pending, the Court decided Janus,
which the district court described as the “zenith” of a
forty-year “fight to overrule Abood” and its holding
“that public employees could be required to pay

11
agency fees as a condition of their employment without violating the First Amendment,” App. 14, which
caused a “systemic effect[] . . . in areas of great public
importance.” App. 28-29. Rather than applying Janus
to the similar facts raised in Cook, the lower court
granted summary judgment to the union and dismissed the complaint. App. 15. It did so because it
thought a good faith defense was available in § 1983
actions to private entities that had violated the First
Amendment when they relied on a presumptivelyvalid state law that then binding Supreme Court precedent said was constitutional. App. 27-30.
In granting AFSCME a good faith defense, the district court admitted that the Court has not decided
whether private defendants might assert a special
good faith defense in § 1983 actions. But the lower
court found guidance in a 2008 Ninth Circuit decision,
Clement v. City of Glendale, 518 F.3d 1090, allowing a
good faith defense through “a facts and circumstances
analysis” that is “more akin to the traditional equitable basis” “without a precise articulation of its contours” but with an underpinning of the “traditional
principles of equality and fairness.” App. 23-25, 27-28.
3. Hough Petitioner
Petitioner William Hough is a public employee of the
Santa Clara Valley Transportation Authority. Before
the Supreme Court’s ruling in Janus Hough was required as a condition of employment to pay fees to respondent SEIU Local 521. This compulsory fee was
automatically deducted from his paycheck without his
consent. The union has not returned any of the fees it

12
seized before Janus. See App. G (App. 33-35); Appellant’s Br., Hough v. SEIU Local 521, No. 19-15792,
Docket No. 8, pp. 2-3 (10-11 of 47) (9th Cir., July 26,
2019), available at 2019 WL 3525961 at *2-*4.
Two weeks after the Janus decision, Hough sued
SEIU Local 521 under § 1983, alleging that the union
violated his First Amendment rights as recognized in
Janus, and seeking damages or restitution for himself, and a class of similarly situated employees, for
the fees Local 521 unconstitutionally exacted from
their wages before Janus during the two-year statutory limitations period. Id.
The district court granted the union’s motion for
summary judgment and dismissed Hough’s putative
class-action complaint because it believed a defendant’s good-faith reliance on then-existing law bars any
refund claim under § 1983. Then considering the issue
outside the “rubric of good-faith reliance,” the lower
court opined: “there is a strong argument that when
the highest judicial authority has previously deemed
conduct constitutional, reversal of course by that judicial authority should never, as a categorical matter,
result in retrospective monetary relief based on that
conduct.” In other words, “it seems unlikely that lower
courts should even consider awarding retrospective
monetary relief based on conduct the Court had previously authorized.” App. G (App. 33-35).
4. Masuo Petitioners
Petitioners Steven Masuo, Gloria Carlson, Jacyn
Gallagher, Lindsey Hart, Craig Leech, Matthew Puntney, Bryan Quinlan, Marina Shadrin, Misty Staebler,
and Betty Sumega are public employees employed by

13
the State of Oregon and various Oregon counties, cities and school districts in various bargaining units exclusively represented by their respective respondent
unions.2 Before Janus, although the Masuo petitioners were not union members, they were compelled, as
a condition of public employment, to pay fees to the
respective union representing their bargaining unit.
None of those unions has returned any of the fees it
seized before Janus. App. 37-39.
Less than three months after the Court’s holding in
Janus, the Masuo petitioners sued AFSCME International and the other unions listed in note 2 under §
1983. Their class-action complaint alleged that the
unions violated their First Amendment rights as recognized in Janus, and sought damages or restitution
for themselves, and a class of similarly situated employees, for the fees AFSCME and the other unions
unconstitutionally exacted from their wages during
the two-year statutory limitations period before Janus. Id at 39.

2 Those respondent unions are AFSCME International, its
Oregon state affiliate, Oregon AFSCME Council 75, its local affiliates: Multnomah County Employees Union AFSCME Local
88, AFSCME Local 3336, and City of Cornelius Employees Union
AFSCME Local 3786-2 (sued as Local 189); National Education
Association (“NEA”), its Oregon state affiliate Oregon Education
Association (“OEA”), and local affiliates Southern Oregon Bargaining Council and Three Rivers Education Association; SEIU
International, its Oregon state affiliate SEIU Local 503 Oregon
Public Employees Union (“OPEU”), and local affiliates Marion
County Employees Association OPEU Local 294 and OPEU Linn
County Local 390; and the Association of Engineering Employees
of Oregon.

14
The district court granted summary judgment to the
unions and dismissed the putative class-action complaint because the Ninth Circuit Danielson decision
“addressed a case involving almost identical facts,
claims, and defense,” App. 42, and “involve[d] issues
that are nearly identical to those here and is binding
precedent on this Court.” App. 40 (note omitted).
Quoting Danielson, the district court held: “‘Because
the Union’s action was sanctioned not only by state
law, but also by directly on-point Supreme Court precedent, we hold that the good faith defense shields the
Union from retrospective monetary liability as a matter of law.’” App. 44-45, quoting Danielson, 945 F.3d
at 1104 (App. 75).
5. The Ninth Circuit Memoranda and Order
Petitioners timely appealed their respective district
court dismissals of their actions to the Ninth Circuit.
The same Ninth Circuit panel affirmed three of those
dismissals, Brice, Cook, and Hough, over a two-day period, April 27 & 28, 2021, in three substantively identical unpublished memoranda that found the respective district courts properly had dismissed the action
or granted summary judgment. The panel held that “a
public sector union can, as a matter of law, ‘invoke an
affirmative defense of good faith to retrospective monetary liability under section 1983 for agency fees it collected’ prior to the Supreme Court’s decision in Janus.
. . Danielson, 945 F.3d at 1097-99.” App. A, App. B,
App. App. C (App. 1-7).
The fourth dismissal affirmance, Masuo, occurred on
May 25, 2021, when a different Ninth Circuit panel

15
granted the involved unions’ motion for summary affirmance because “the questions presented in this appeal are so insubstantial as not to justify further proceedings. Danielson . . ., 945 F.3d [at] 1103-05 . . .
(holding that good faith defense shielded union ‘as a
matter of’ law where conduct ‘was sanctioned not only
by state law, but also by directly on-point Supreme
Court precedent.’).” App. D (App. 8-9).
These four summary affirmances were all based on
the earlier Ninth Circuit Danielson decision. The Danielson panel felt bound by the earlier Ninth Circuit decision in Clement that private parties may invoke a
good faith defense to liability under 42 U.S.C. § 1983,
based solely on “equality and fairness.” Danielson, 945
F.3d at 1099-1100 (App. 63-65). In the absence of Supreme Court guidance, the Danielson and Clement
panels admitted they were “driven not by the strictures of common law, but rather by principles of
equality and fairness” when they granted a good faith
defense to private entities that relied on presumptively-valid state laws. Id. at 1101-02 (App. 68-69); see
also Clement, 518 F.3d at 1096-97.
REASONS FOR GRANTING THE JOINT PETITION
It is hard to overstate the cases’ legal importance.
For more than thirty years lower courts3 have decided
Duncan v. Peck, 844 F.2d 1261, 1267 (6th Cir. 1988); Wyatt
v. Cole, 994 F.2d 1113, 1118 (5th Cir. 1993); Jordan v. Fox, Rothschild, O’Brien & Frankel, 20 F.3d 1250, 1275-77 (3d Cir. 1994);
Vector Rsch., Inc. v. Howard & Howard Att’ys, P.C., 76 F.3d 692,
699 (6th Cir. 1996); Pinsky v. Duncan, 79 F.3d 306, 311-12 (2d
Cir. 1996); Clement v. City of Glendale, 518 F.3d 1090, 1096-97
3

16
whether private parties sued under 42 U.S.C. § 1983
may assert a good faith defense to liability and damages without the Court answering that question4 and,
if necessary, providing the criteria and principles for
granting such a defense, especially to violators of the
First Amendment. With no supervision, the Ninth
Circuit, along with other lower courts, have applied a
patchwork of standards and rationales devoid of any
connection to the language of and the Court’s pronouncements on § 1983.
Courts cannot devise limitations to the remedial
scope of § 1983 “based on our notions of policy or efficiency.” Wyatt, 504 U.S. at 171-72 (Kennedy, J., concurring). This is what the Ninth Circuit in Clement
did when it created a good faith defense to § 1983 litigation. The Cook district court recognized that Clement relied on “a facts and circumstances analysis” that
is “more akin to the traditional equitable basis” but
(9th Cir. 2008); Janus v. AFSCME, Council 31, 942 F.3d 352,
366-67 (7th Cir. 2019) (“Janus II”); Danielson v. Inslee, 945 F.3d
1096, 1097 (9th Cir. 2019); Lee v. Ohio Educ. Ass’n, 951 F.3d 386,
391 (6th Cir. 2020); Ogle v. Ohio Civ. Serv. Emps. Ass’n, 951 F.3d
794 (6th Cir. 2020); Wholean v. CSEA SEIU Loc. 2001, 955 F.3d
332, 334 (2d Cir. 2020); Diamond v. Pa. State Educ. Ass’n, 972
F.3d 262, 271-73 (3d Cir. 2020); Doughty v. State Emps. Ass’n of
N.H., SEIU Loc. 1984, 981 F.3d 128, 134-38 (1st Cir. 2020); Akers
v. Md. State Educ. Ass’n, 990 F.3d 375, 379-82 (4th Cir. 2021).
Clearly, this question has percolated long enough among the
lower courts with seven of the thirteen circuits having decided
the question presented.
4 Three times the Court has considered but not decided
whether an affirmative good faith defense to § 1983 liability even
exists. See Richardson, 521 U.S. at 413-14; Wyatt, 504 U.S. at
169; Lugar v. Edmondson Oil Co., 457 U.S. 922, 942 n.23 (1982).

17
“without a precise articulation of its contours,” except
for lip service to “equality and fairness.” App. 24-25,
27-28.
The decisions below essentially nullify petitioners’
congressionally provided relief by looking only at
“equality and fairness” that a good faith defense provides to unions, without considering the equitable interests of victims who were wrongly denied their First
Amendment rights. In these decisions, there was no
balancing of the competing equities and, certainly, no
fairness to the victims for whom § 1983 was enacted.
It is exceptionally important the Court take this case
because the Ninth Circuit’s decisions undermine the
Constitution and will have adverse consequences for
civil rights plaintiffs. Lower courts should not be permitted to manipulate constitutional claims to predetermine the outcome of cases based on what they
think is good policy or fair to the violators of constitutional rights. The Court should thus reject the proposition that courts can engage in judicial gerrymandering by granting a good faith defense based on “equality and fairness” to the violators of the First Amendment that leave the victims with no remedy.
The time is ripe for the Court’s intervention to disabuse lower courts of the misconception that a defendant acting under color of a statute before it is held unconstitutional has an affirmative good faith defense to
§ 1983 claims, which denies damages to victims whose
First Amendment rights were violated. Certiorari is
warranted.

18
I.

The Decisions Below Conflict with the Court’s
Precedents.
A. Allowing a good faith defense imposes a
state-of-mind-requirement
for
First
Amendment compelled speech violations
and ignores the Court’s holding in Janus.
The Ninth Circuit’s decisions granting unions a good
faith defense to retrospective monetary liability because they acted in reliance on state law and a later
overruled Supreme Court precedent contravene the
Court’s § 1983 precedents and effectively impose a
state-of-mind requirement on First Amendment compelled speech violations when none exists. In doing so,
the Ninth Circuit ignored the Court’s holding for what
a compelled speech and association claim requires under Janus and the remedy § 1983 provides petitioners.
Section 1983 provides a cause of action for the “deprivation of any rights, privileges, or immunities secured by the Constitution and laws.” 42 U.S.C. § 1983.
The statute does not include a “state of mind requirement.” Parratt v. Taylor, 451 U.S. 527, 534–35 (1981),
overruled on other grounds by Daniels v. Williams, 474
U.S. 327 (1986). As the Court explained in Parratt,
“[n]othing in the language of § 1983 or its legislative
history limits the statute solely to intentional deprivations of constitutional rights.” Id. at 534.5
See also Parratt, 451 U.S. at 534 (“[§] 1983, unlike its criminal counterpart, 18 U.S.C. § 242, has never been found by this
Court to contain a state-of-mind requirement.”) (note omitted);
Nieves v. Bartlett, 139 S. Ct. 1715, 1730 (2019) (Gorsuch, J., concurring in part and dissenting in part) (“[L]ook at [§ 1983] as
5

19
Several years later, the Court reaffirmed § 1983 does
not have a general state of mind requirement. In Daniels, the Court explained that § 1983 “contains no
state-of-mind requirement independent of that necessary to state a violation of the underlying constitutional right.” 474 U.S. at 330 (citing Parratt, 451 U.S.
at 534–35). In other words, if a plaintiff must prove a
defendant’s state of mind, it is only because the constitutional right at issue requires that proof.
First Amendment speech violations usually require
no specific intent or mens rea. See, e.g., OSU Student
Alliance v. Ray, 699 F.3d 1053, 1075 (9th Cir. 2012)
(“free speech violations do not require specific intent”);
accord Diamond, 972 F.3d at 289 (Phipps. J, dissenting) (“At most, a showing of good faith can negate a
mental state element of a claim – such as gross negligence required for a procedural due process claim. But
that is of no moment here because a claim for compelled speech does not have a mens rea requirement.”)
(citations omitted); cf. United States v. O’Brien, 391
U.S. 367, 377 (1968) (government need not target
speech to violate the Free Speech Clause).
As most relevant here, a First Amendment claim for
compelled subsidization of speech does not have a
state of mind requirement. The Court held in Janus
that the First Amendment protects public employees’
freedom from being compelled financially to support a
labor union’s speech as a condition of employment
without their affirmative consent. 138 S. Ct. at 2486.
long as you like and you will find no reference to the presence or
absence of probable cause as a precondition or defense to any
suit.”)

20
This is because “[c]ompelling a person to subsidize the
speech of other private speakers” undermines “our
democratic form of government” and leads to individuals being “coerced into betraying their convictions.”
Id. at 2464 (emphasis in original). Under the First
Amendment as construed by the Court in Janus, then,
all that is required for a defendant to “deprive” employees of their First Amendment rights is to compel
speech by taking their money without affirmative consent. 138 S. Ct. at 2486.
The allowance of a good faith defense by the Ninth
Circuit inserts a state of mind element into these
§1983 First Amendment claims when such an element
does not exist.6 The Court’s intervention is necessary
to stop this dilution of § 1983 protecting and remedying First Amendment violations, especially those that
were wrongly denied when they occurred.
B. Policy interests in “equality and fairness”
do not justify a good faith defense.
1. Courts cannot refuse to enforce federal statutes
because they believe it unfair to do so. “As a general
matter, courts should be loath to announce equitable
exceptions to legislative requirements or prohibitions
that are unqualified by the statutory text.” Guidry v.
Sheet Metal Workers Nat’l Pension Fund, 493 U.S.
365, 376 (1990). “It is for Congress to determine
6 A violation of First Amendment speech rights is nothing
like the abuse of process tort that the Ninth Circuit used to rationalize its granting of a good faith defense to the unions. Danielson, 945 F.3d at 1102 (App. 69-71). This is another area of the
Danielson decision that the Danielson petition did not raise or
address. See note 1.

21
whether § 1983 litigation has become too burdensome
. . . and if so, what remedial action is appropriate.”
Tower, 467 U.S. at 922–23. The “fairness” rationale,
especially the one-sided one applied by the Ninth Circuit, for a good faith defense to § 1983 is inadequate
on its own terms.7
Indeed, fairness to victims of constitutional deprivations requires enforcing § 1983’s text as written. It is
not fair to make employees pay for unconstitutional
union conduct. Nor is it fair to let wrongdoers keep illgotten gains. “[E]lemental notions of fairness dictate
that one who causes a loss should bear the loss.”
Owen, 445 U.S. at 654.
The Court said that in Owen when holding that §
1983’s legislative purposes did not justify extending
7 The separation-of-powers doctrine, also, bars courts from
creating equitable defenses to federal statutes. “[I]n our constitutional system[,] the commitment to the separation of powers is
too fundamental for [courts] to pre-empt congressional action by
judicially decreeing what accords with ‘common sense and the
public weal.’” Tenn. Valley Auth. v. Hill, 437 U.S. 153, 195 (1978).
For example, in SCA Hygiene Products Aktiebolag v. First Quality Baby Products, LLC, 137 S. Ct. 954 (2017), the Court recently
held it would violate “separation-of-powers principles” for courts
to apply the equitable defense of laches to a statutory damages
remedy. Id. at 960. The Court found that allowing courts to superimpose this equitable defense onto a federal statute would
“give judges a ‘legislation-overriding’ role that is beyond the Judiciary’s power.” Id. (citation omitted).The Ninth Circuit was
wrong to refuse to enforce § 1983 on its sense of fairness to the
unions. “Under the Constitution’s separation of powers, our role
as judges is to interpret and follow the law as written, regardless
of whether we like the result.” Bostock v. Clayton County, 140 S.
Ct. 1731, 1823 (2020) (Kavanaugh, J. dissenting) (citation omitted).

22
good-faith immunity to municipalities. The Court’s
reasons for that holding apply here.
First, the Owen Court reasoned, “many victims of
municipal malfeasance would be left remediless if the
city were also allowed to assert a good-faith defense,”
and that “[u]nless countervailing considerations counsel otherwise, the injustice of such a result should not
be tolerated.” 445 U.S. at 651 (footnote omitted). So
too here. It would be an injustice to leave innocent victims of fee seizures constituting compelled political
speech and other constitutional violations remediless
for their injuries.
Second, the Court recognized that Congress enacted
Section 1983 to “serve as a deterrent against future
constitutional deprivations.” Id. “The knowledge that
a municipality will be liable for all of its injurious conduct, whether committed in good faith or not, should
create an incentive for officials who may harbor
doubts about the lawfulness of their intended actions
to err on the side of protecting citizens’ constitutional
rights.” Id. at 651–52 (note omitted). This deterrence
interest also weighs against a reliance defense, which
will encourage defendants to risk infringing on constitutional rights by limiting their exposure for so doing.
Third, the Owen Court reasoned that “even where
some constitutional development could not have been
foreseen by municipal officials, it is fairer to allocate
any resulting financial loss” to the entity that caused
the harm “than to allow its impact to be felt solely by
those whose rights, albeit newly recognized, have
been violated.” Id. at 655. So too here. It is not fair to
have employees pay for unconstitutional union con-

23
duct. Equity favors requiring unions to return to employees monies unconstitutionally seized from them
within the two-year limitations period. The records
below lack any suggestions that being required to rebate two years of the forced fees “taken from nonmembers and transferred to public-sector unions in violation of the First Amendment” would cause respondents serious financial harm. Janus, 138 S. Ct. at 2486.
2. Owen establishes why public and private entities
do not have immunity from § 1983 liability, while
some individuals do, and why it is fair that entities,
like unions, lack a good faith defense to the statute
even when the entity could not reasonably have
known it violated individual’s constitutional rights.
In April 1972, Owen, the city’s former police chief,
was fired for alleged wrongdoing without first being
provided notice of the reasons for the firing and an opportunity for a pre-termination hearing. Owen, 445
U.S. at 629. Two months later, the Court decided
Board of Regents v. Roth, 408 U.S. 564 (1972), and
Perry v. Sindermann, 408 U.S. 593 (1972), holding
that a public employee had a right to notice and an
opportunity for a hearing before being fired. Because
these rights were not crystalized until after the city
fired Owen, the Eighth Circuit held that (a) the individual defendants involved in firing him acted in good
faith and were thus entitled to good-faith immunity,
and (b) the city was “‘not liable for actions it could not
reasonably have known violated [Owen’s] constitutional rights.’” Owen, 445 U.S. at 634 (quoting Owen
v. City of Independence, 589 F.2d 335, 338 (8th Cir.
1978)).

24
While the Court did not object to granting good-faith
immunity to the individuals, the Court refused to allow the city to ride the coattails of its employees’ good
faith. Explaining why, the Court began with the fact
that, “[b]y its terms, § 1983 ‘creates a species of tort
that on its face admits of no immunities.’” Id. at 635
(quoting Imbler, 424 U.S. at 417). So any immunity (or
defense, as Imbler shows) that would be applied
against a § 1983 claim must be “‘predicated upon a
considered inquiry into the immunity historically accorded the relevant official at common law and the interests behind it.’” Id. at 638 (quoting Imbler, 424 U.S.
at 421). Not only that, public-policy justifications
must also support the application of an immunity before it can be applied against a § 1983 claim. Id. The
Court held that neither of these requirements protected the city based on its employees’ good faith. Id.
Looking first at the state of the law in 1871, the
Court observed that, “by 1871, municipalities—like
private corporations—were treated as natural persons for virtually all purposes of constitutional and
statutory analysis.” Id. at 638–39. “[I]t is clear that at
the time § 1983 was enacted, local governmental bodies did not enjoy the sort of ‘good-faith’ qualified immunity extended to them by the Court of Appeals.” Id.
at 640. Indeed, “one searches in vain for much mention of a qualified immunity based on the good faith of
municipal officers,” such that “the courts had rejected
the proposition that a municipality should be privileged where it reasonably believed its actions to be
lawful.” Id. at 641.
In sum, we can discern no “tradition so well
grounded in history and reason” that would

25
warrant the conclusion that in enacting § 1
of the Civil Rights Act [now codified at §
1983], the 42d Congress sub silentio extended to municipalities a qualified immunity based on the good faith of their officers.
Id. at 650 (citations omitted).
The Court also held that public policy considerations
did not support extending good-faith protection to
public employers. Central to this conclusion was the
rule that “[a] damages remedy against the offending
party is a vital component of any scheme for vindicating cherished constitutional guarantees[.]” Id. at 651.
While it may be unfair to hold individual employees
liable for their good-faith violations, it is not unfair to
hold the employer entity liable for those violations. Id.
at 654–55.
The public policy of ensuring that government employees carry out their duties unimpeded by concerns
about personal liability does not come into play if only
the employer is liable. Id. at 655–56. Thus, under
Owen, even if an employee’s good faith protects that
employee against § 1983 liability, it does not protect
the employer entity: “We hold . . . that the municipality may not assert the good faith of its officers or
agents as a defense to liability under § 1983.” Id. at
638.
If municipal organizations lack a good faith defense
to § 1983, then so do other organizations subject to the
statute (such as the unions here). The Court observed
that, in 1871, “a municipality’s tort liability in damages was identical to that of private corporations[.]”
Id. at 640 (emphasis added). A public-sector union’s

26
labiality in damages should thus be the same as a municipal employer’s liability for which no immunity or
good faith defense exists.
3. The proposition that “equality and fairness” justify extending to private defendants a defense like the
immunity enjoyed by some public defendants, which
the Ninth Circuit did in Danielson, 945 F.3d at 1101
(App. 67-69), and these cases, makes little sense.8
That unions are not entitled to qualified immunity is
not reason to create a similar defense for unions under
a different rubric. Courts do not award defenses to
parties as consolation prizes for failing to meet the criteria for an immunity.
Even if principles of “equality and fairness” required
treating a union like its closest government counterpart, that still would not entitle it to an immunity-like
defense. As Owen shows, a large organization like a
public sector union is nothing like individual persons
who enjoy qualified immunity. A union is most like a
governmental body that lacks qualified immunity—a
municipality. Owen, 445 U.S. at 654. “It hardly seems
unjust to require a municipal defendant which has violated a citizen’s constitutional rights to compensate
him for the injury suffered thereby.” Id. Nor is it unfair to require a large organization, like a public sector
union, to compensate citizens for violating their constitutional rights, even if it thought its actions were
constitutionally permissible.
Neither “equality nor fairness” justifies recognizing
a good faith defense to § 1983. Rather, both principles

8

See note 1.

27
weigh against carving this exemption into § 1983’s remedial framework. Without the Court’s express resolution of the question presented, the lower courts will
continue this freewheeling application of a good faith
defense whenever they disagree with the Court’s First
Amendment jurisprudence or disfavor those who the
Court protected.
C. Even if the principles of “equality and fairness” are the applicable standard, the
Ninth Circuit failed; i) to apply those principles to all the parties involved; ii) to balance the competing equities; or iii) to devise a fair remedy for those wrongly denied
their First Amendment rights.
The Ninth Circuit created a good-faith exception to
§ 1983 damages for First Amendment violators based
on the proposition that “equality and fairness” justify
the defense. Yet the courts below only applied those
principles to the perpetrators of these violations, without considering the rights or interests of the victims of
those constitutional violations.
This one-sided focus on what is equitable and fair to
unions who violated the First Amendment rights of
the nonmember employees they represent, with no
mention or consideration of either the nonmember victims or the public interest, is wrong. Any consideration of adopting a good faith defense against First
Amendment violations must include an evenhanded
analysis of all involved, which is sadly missing here.
This failure to consider victims’ interests justifies the
granting of certiorari.

28
The Janus Court recognized “the considerable windfall that unions have received under Abood for the
past 41 years,” and found it “hard to estimate how
many billions of dollars have been taken from nonmembers and transferred to public-sector unions in violation of the First Amendment.” Janus, 138 S. Ct. at
2486. The nonmembers in these cases and others like
them do not seek the indefinite return of all unconstitutional exactions for the past 41 years. Instead, they
seek only damages going back the two years allowed
under the California and Oregon statutes of limitations.9 The damages sought here and in similar cases
seek a return of but a fraction of the billions of dollars
unions unconstitutionally seized from nonmembers
over the past 41 years.
The statute of limitations also reduces and eventually eliminates the unions’ risk of new suits to recover
pre-Janus damages. In forty states, the District of Columbia, Puerto Rico and the U.S. Virgin Islands, the
risk has passed. See supra n.9. Of the remaining ten
states with four to six-year limitations periods, id.,
only two, Maine and Missouri, had allowed nonmember forced fees.10 The other eight states had prohibit
The limitations period for § 1983 actions, which is usually
the state’s personal liability tort period, Wilson v. Garcia, 471
U.S. 261 (1985), ranges from one to six years, with most state
periods being between two and three years. Matthiesen, Wickert
& Lehrer, S.C. (2021), “Statute of Limitations for All Fifty
States,”
https://www.mwl-law.com/wp-content/uploads/2018/02/SOL-CHART.pdf.
9

10 National Right to Work Legal Defense Foundation, “Right
to Work States” (2021), https://www.nrtw.org/right-to-workstates.

29
union forced fees by statute. See supra n.10. Even
without a good faith defense, the statute of limitations
allows unions to retain nearly all funds they seized
from employees in violation of the First Amendment.
Granting a good faith defense gives nothing to the
victims whose First Amendment rights were violated.
They are left with a right, but no remedy. This result
is wholly inconsistent with “equality and fairness,” especially when the courts below failed to even mention
or consider their interests and the First Amendment
rights at stake. There is nothing fair about depriving
these victims of all compensation for their injuries
within the limitations period. As Judge Phipps correctly observed when rejecting the proposition that
there is a good faith defense to Section 1983 liability:
Neither equality nor fairness overwhelmingly favors the reliance interests of the unions in pre-existing law over the free speech
rights of non-members who were compelled
to support the unions. The Supreme Court in
Janus already accounted for those reliance
interests in overturning Abood. See Janus,
138 S. Ct. at 2484-86 . . . Those considerations need not be double-counted under the
guise of a good faith affirmative defense. And
that is to say nothing of the text, history, and
purpose § 1983, which make it particularly
ill-suited to a construction that elevates reliance interests over the vindication of constitutional rights.
Diamond, 972 F.3d at 289 (Phipps, dissenting) (other
citations omitted).

30
This statutory basis, the statute of limitations, provides “equality and fairness” to the competing interests involved in the unions’ demands for an affirmative good faith defense. The victims of First Amendment violations get some remedy and recognition
while the violators have a reasonable limit on their liability for the billions of dollars taken from nonmembers and transferred to public-sector unions over four
decades in violation of the First Amendment.
The Court should correct the injustices that lower
courts imposed on victims of forced fee seizures when
they did not consider the interests of all the parties
involved. This lack of even-handed fairness is even
more unsettling when there is a statutory basis that
equally and fairly resolves the competing interests involved when employees wrongly were denied their
First Amendment rights by unions following thenbinding Supreme Court precedent.
II. This Case is Exceptionally Important.
This case is profoundly important not just for the
vindication of petitioners’ wrongly denied First
Amendment rights, but also for other civil rights
plaintiffs who rely on § 1983 to obtain a remedy for
violations of their constitutional rights. Congress enacted § 1983 to give plaintiffs a mechanism to enforce
the Constitution’s mandates against those who use
governmental power to invade protected liberties.
However, if lower courts, like the Ninth Circuit did
here, can deny remedies to constitutional claims
brought under § 1983 when they feel that is the best
policy; it will undermine the Constitution and will
leave many victims of civil rights abuses remediless.

31
Given § 1983’s status as the nation’s preeminent
civil rights statute, whether the statute includes a
common-law or equitable-driven good faith defense is
no small matter. The issue is vital to many, but particularly to the thousands of nonunion public employees wrongly denied vindication of their First Amendment rights in the cases presented by this petition and
the other pending cases, including many putative
class actions lawsuits, seeking refunds from unions
for fees seized from workers’ paychecks in violation of
the First Amendment. See Amicus Br. of Goldwater
Inst. 4, Janus v. AFSCME, Council 31, No. 19-1104
(Apr. 9, 2020). It is long past time for the Court to decide the question left open in Wyatt and determine
whether a good faith defense is available to a § 1983
claim and, if necessary, the contours to and principles
for establishing that defense based on all the parties
involved as well as the public good.
CONCLUSION
For all these reasons, petitioners respectfully request that the Court grant their joint petition for a
writ of certiorari to the Ninth Circuit.
Respectfully submitted,
MILTON L. CHAPPELL
Counsel of Record
AARON B. SOLEM
c/o NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION, INC.
8001 Braddock Road
Suite 600
Springfield, VA 22160

32
(703) 321-8510
mlc@nrtw.org
Counsel for All Petitioners
abs@nrtw.org
Counsel for William Hough
JAMES G. ABERNATHY
REBEKAH C. MILLARD
FREEDOM FOUNDATION
P.O. BOX 552
Olympia, WA 98507
(360) 956-3482
jabernathy@freedomfoundation.com
rmillard@freedomfoundation.com
Counsel for Cook & Masuo
September 23, 2021

APPENDIX

TABLE OF APPENDICES
Appendix A
Memorandum, dated April 28, 2021, United
States Court of Appeals for the Ninth Circuit,
Brice v. California Faculty Association, No. 1956164, D.C. No. 2:19-cv-04095-JLS-DFM .. App-1
Appendix B
Memorandum, dated April 27, 2021, United
States Court of Appeals for the Ninth Circuit,
Cook, et al. v. Brown, et al., No. 19-35191, D.C.
No. 6:18-cv-01085-AA ................................. App-3
Appendix C
Memorandum, dated April 27, 2021, United
States Court of Appeals for the Ninth Circuit,
Hough v. SEIU Local 521, No. 19-15792, D.C. No.
3:18-cv-04902-VC ........................................ App-6
Appendix D
Order, dated May 25, 2021, United States Court
of Appeals for the Ninth Circuit, Masuo, et al. v.
American Federation of State, County and
Municipal Employees International Union, AFLCIO, et al., No. 20-35355, D.C. No. 3:18-cv01685-SI ...................................................... App-8
Appendix E
Order Granting Defendant’s Motion to Dismiss,
dated September 10, 2019, United States District
Court for the Central District of California, Brice
v. California Faculty Association, Case No. 2:19cv-04095-JLS-DFM ................................... App-10

TABLE OF APPENDICES (cont’d)
Appendix F
Opinion & Order, dated February 28, 2019,
United States District Court for the District of
Oregon, Cook, et al. v. Brown, et al., Case No.
6:18-cv-01085-AA ...................................... App-12
Appendix G
Amended Order Granting Motion for Summary
Judgment, dated April 16, 2019, United States
District Court for the Northern District of
California, Hough v. SEIU Local 521, Case No.
18-cv-04902-VC ......................................... App-33
Appendix H
Opinion and Order, dated March 31, 2020, United
States District Court for the District of Oregon,
Chambers, et al. v. American Federation of State,
County, and Municipal Employees International
Union, AFL-CIO, et al., Case No. 3:18-cv-1685SI ............................................................ App-36
Appendix I
Opinion, dated December 26, 2019, United States
Court of Appeals for the Ninth Circuit,
Danielson, et al. v. Inslee, et al., No. 18-36087,
D.C. No. 3:18-cv-05206-RJB ..................... App-54

App-1
Appendix A
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
WILLIAM D. BRICE,
Plaintiff-Appellant,

No. 19-56164
D.C. No. 2:19-cv040 95-JLS-DFM

v.
CALIFORNIA FACULTY
ASSOCIATION,

MEMORANDUM

Defendant-Appellee.
Appeal from the United States District Court
for the Central District of California
Josephine L. Staton, District Judge, Presiding
Submitted April 20, 2021**
Before: THOMAS, Chief Judge, TASHIMA and
SILVERMAN, Circuit Judges.
William D. Brice appeals from the district court’s
judgment dismissing his 42 U.S.C. § 1983 putative
class action alleging a First Amendment claim arising


This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable
for decision without oral argument. See Fed. R. App. P. 34(a)(2).

App-2
out of compulsory agency fees (also known as fair
share fees) paid to the California Faculty Association.
We have jurisdiction under 28 U.S.C. § 1291. We
review de novo the district court’s dismissal under
Federal Rule of Civil Procedure 12(c). Lyon v. Chase
Bank USA, N.A., 656 F.3d 877 (9th Cir. 2011). We
affirm.
The district court properly dismissed Brice’s
action because a public sector union can, as a matter
of law, “invoke an affirmative defense of good faith to
retrospective monetary liability under section 1983
for the agency fees it collected” prior to the Supreme
Court’s decision in Janus v. American Federation of
State, County & Municipal Employees, Council 31,
138 S. Ct. 2448 (2018). Danielson, 945 F.3d at 109799 (“[P]rivate parties may invoke an affirmative
defense of good faith to retrospective monetary
liability under 42 U.S.C. § 1983, where they acted in
direct reliance on then-binding Supreme Court
precedent and presumptively-valid state law.”).
We do not consider matters not specifically and
distinctly raised and argued in the opening brief. See
Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir.
2009).
AFFIRMED.

App-3
Appendix B
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CHE’ S COOK; et al,

No. 19-35191

Plaintiffs-Appellants,

D.C. No. 6:18-cv01085-AA

KATE BROWN, in her
official capacity as Governor
of the State of Oregon; KATY
COBA, in her official capacity
as Director of the Oregon
Department of
Administrative Services,

MEMORANDUM

v.

Defendants,
and
OREGON AMERICAN
FEDERATION OF STATE,
COUNTY, AND MUNICIPAL
EMPLOYEES COUNCIL 75,
Defendant-Appellee.



This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.

App-4
Appeal from the United States District Court
for the District of Oregon
Ann L. Aiken, District Judge, Presiding
Submitted April 20, 2021**
Before: THOMAS, Chief Judge, TASHIMA and
SILVERMAN, Circuit Judges.
Che’ S. Cook, Clifford H. Elliott, Bethany
Harrington, William Lehner, Carmen Lewis, and
Trudy Metzger appeal from the district court’s
summary judgment in their 42 U.S.C. § 1983 action
alleging a First Amendment claim arising out of
compulsory agency fees (also known as fair share fees)
paid to Oregon American Federation of State, County,
and Municipal Employees (“AFSCME”) Council 75.
We have jurisdiction under 28 U.S.C. § 1291. We
review de novo. Danielson v. Inslee, 945 F.3d 1096,
1098 (9th Cir. 2019), cert. denied, No. 19-1130, 2021
WL 231555 (Jan. 25, 2021). We affirm.
The district court properly granted summary
judgment because a public sector union can, as a
matter of law, “invoke an affirmative defense of good
faith to retrospective monetary liability under section
1983 for the agency fees it collected” prior to the
Supreme Court’s decision in Janus v. American
Federation of State, County & Municipal Employees,
Council 31, 138 S. Ct. 2448 (2018). Danielson, 945
F.3d at 1097-99 (“[P]rivate parties may invoke an
** The panel unanimously concludes this case is suitable
for decision without oral argument. See Fed. R. App. P. 34(a)(2).
Appellants’ request for oral argument, set forth in the opening
brief, is denied.

App-5
affirmative defense of good faith to retrospective
monetary liability under 42 U.S.C. § 1983, where they
acted in direct reliance on then-binding Supreme
Court precedent and presumptively-valid state law.”).
We do not consider matters not specifically and
distinctly raised and argued in the opening brief. See
Padgett v. Wright, 587 F.3d 983, 985 n. 2 (9th Cir.
2009).
AFFIRMED.

App-6
Appendix C
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
WILLIAM HOUGH,
Plaintiff-Appellant,

No. 19-15792

v.

D.C. No. 3:18-cv04902-VC

SEIU LOCAL 521,

MEMORANDUM

Defendant-Appellee.
Appeal from the United States District Court
for the Northern District of California
Vince Chhabria, District Judge, Presiding
Submitted April 20, 2021**
Before: THOMAS, Chief Judge, TASHIMA and
SILVERMAN, Circuit Judges.
William Hough appeals from the district court’s
summary judgment in his 42 U.S.C. § 1983 putative
class action alleging a First Amendment claim arising

This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable
for decision without oral argument. See Fed. R. App. P. 34(a)(2).
Hough’s request for oral argument, set forth in the opening brief,
is denied.

App-7
out of compulsory agency fees (also known as fair
share fees) paid to SEIU Local 521. We have
jurisdiction under 28 U.S.C. § 1291. We review de
novo. Danielson v. Inslee, 945 F.3d 1096, 1098 (9th
Cir. 2019), cert. denied, No. 19-1130, 2021 WL 231555
(Jan. 25, 2021). We affirm.
The district court properly granted summary
judgment because a public sector union can, as a
matter of law, “invoke an affirmative defense of good
faith to retrospective monetary liability under section
1983 for the agency fees it collected” prior to the
Supreme Court’s decision in Janus v. American
Federation of State, County & Municipal Employees,
Council 31, 138 S. Ct. 2448 (2018). Danielson, 945
F.3d at 1097-99 (“[P]rivate parties may invoke an
affirmative defense of good faith to retrospective
monetary liability under 42 U.S.C. § 1983, where they
acted in direct reliance on then-binding Supreme
Court precedent and presumptively-valid state law.”).
We do not consider matters not specifically and
distinctly raised and argued in the opening brief. See
Padgett v. Wright, 587 F.3d 983, 985 n. 2 (9th Cir.
2009).
AFFIRMED.

App-8
Appendix D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
STEVEN MASUO; et al.,
Plaintiffs-Appellants,
v.
AMERICAN FEDERATION
OF STATE, COUNTY AND
MUNICIPAL EMPLOYEES
INTERNATIONAL UNION,
AFL-CIO; et al.,

No. 20-35355
D.C. No. 3:18-cv01685-SI
District of Oregon,
Portland
ORDER

Defendants-Appellees.
Before: PAEZ, BRESS, and FORREST, Circuit
Judges.
Appellees’ motion for summary affirmance
(Docket Entry No. 21) is granted because the
arguments raised in the opening brief and in response
to the summary disposition motion demonstrate that
the questions presented in this appeal are so
insubstantial as not to justify further proceedings. See
9th Cir. R. 3-6(a)(2); United States v. Hooton, 693 F.2d
857, 858 (9th Cir. 1982) (stating standard); see also
Danielson v. Inslee, 945 F.3d 1096, 1103-05 (9th Cir.
2019) (holding that good faith defense shielded union
“as a matter of law” where conduct “was sanctioned

App-9
not only by state law, but also by directly on-point
Supreme Court precedent”).
AFFIRMED.

LCC/MOATT

App-10
Appendix E
JS-6
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.: 2:19-cv-04095-JLS-DFM
Date: September 10, 2019
Title: William D. Brice v. California Faculty Association
Present: Honorable JOSEPHINE L. STATON,
UNITED STATES DISTRICT JUDGE
__Terry Guerrero
Deputy Clerk

N/A_____
Court Reporter

ATTORNEYS PRESENT FOR PLAINTIFF:
Not Present
ATTORNEYS PRESENT FOR DEFENDANT:
Not Present
PROCEEDINGS: (IN CHAMBERS) ORDER
GRANTING DEFENDANT’S
MOTION TO DISMISS (Doc. 52)
Before the Court is Defendant’s Motion to
Dismiss. (Mot., Doc. 52.) The parties recognize that

App-11
the
issues
presented
by
this
case
are
indistinguishable from those the Court addressed in
Babb v. California Teachers Association, 2019 WL
2022222 (C.D. Cal. May 8, 2019). (See Mot. at 1-2;
Opp. At 2, Doc. 53; Reply at 1, Doc. 55.) The Court
agrees.
Accordingly, for the same reasons stated in the
Court’s order in Babb, the Court GRANTS
Defendant’s Motion to Dismiss.
Initials of Preparer: tg

App-12

Appendix F
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
EUGENE DIVISION

CHE’ S. COOK, et al.,
Plaintiffs,

Case No. 6:18-cv-01085AA
OPINION & ORDER

v.
KATE BROWN, et al.,
Defendants.

AIKEN, District Judge:
Che’ S. Cook, Clifford H. Elliott, J. Scott English,
Bethany Harrington, William Lehner, Carmen Lewis,
and Trudy Metzger (collectively, “Plaintiffs”)1 were
forced to pay compulsory union agency fees to the
American Federation of State, County, and Municipal
Employees, Council 75 (“AFSCME”). They brought
1 AFSCME notes that Che’ Cook and William Lehner never
paid agency fees and that any funds deducted from their wages
were pursuant to a signed membership card authorizing the
deductions.

App-13
suit against AFSCME as well as against two public
officials: Kate Brown and Katy Coba (“State
Defendants”). Before the Court is AFSCME’s Motion
for Judgment on the Pleadings or, Motion for
Summary Judgment (doc. 24). For the reasons
discussed, AFSCME’s motion is GRANTED.
BACKGROUND
Plaintiffs are public employees who were
exclusively represented by AFSCME. Oregon’s Public
Employee Collective Bargaining Act (“PECBA”) gives
certain public employees the right to unionize and to
elect an exclusive representative. AFSCME is such an
exclusive representative and PECBA requires it to
also represent the interests of non-members during
collective bargaining negotiations. To avoid freeriders, the Act authorizes public employers to deduct
a fraction of full union dues, often called “agency fees,”
from non-members to cover the costs of general
collective bargaining representation.
Plaintiffs filed an action under 42 U.S.C. § 1983
challenging the constitutionality of these fees. They
argued that Defendants were violating their First
Amendment rights by forcing compulsory agency fee
payments to AFSCME as a condition of their
employment, even though Plaintiffs did not belong to
this union and did not wish to subsidize the union’s
activities. Plaintiffs sought (i) a declaratory judgment
that all pertinent statutes, rules, regulations, and
collective-bargaining agreements that compel agency
fees violate the First Amendment; (ii) an injunction
against activities that violate the declaratory

App-14
judgment; and (iii) compensatory damages or
restitution from AFSCME for the wrongfully seized
agency fees.
While this case was pending, the Supreme Court
handed down its decision in Janus v. AFSCME on
June 27, 2018. 138 S. Ct. 2448 (2018). Janus was the
culmination of a series of cases that expressed
skepticism about the core holding of Abood v. Detroit
Board of Education – namely, that public employees
could be required to pay agency fees as a condition of
their employment without violating the First
Amendment. 431 U.S. 209, 209 (1977). In 2012, the
Supreme Court considered Knox v. Service Employees
International Union and called Abood “something of
an anomaly.” 567 U.S. 298, 311 (2012). Two years
later in Harris v. Quinn, the Supreme Court was
asked to overrule Abood but declined to do so even
after including notably pointed dicta about Abood in
its opinion. 573 U.S. 616, 635 (2014) (stating that
Abood “seriously erred” in its treatment of prior cases
and “did not foresee the practical problems that would
face objecting nonmembers.”). Twelve months later,
the Supreme Court again considered overruling
Abood in Friedrichs v. California Teachers
Association, et al., but split 4-4. 136 S. Ct. 1083 (2016)
(per curiam)). After over forty years of litigation, the
fight to overrule Abood finally reached its zenith in
Janus, which held that compulsory union payments,
including agency fees, cannot be collected from
nonconsenting employees. 138 S. Ct. 2486. Abood was
thus overruled. Id.

App-15
State
Defendants submitted declarations
evincing immediate compliance with Janus’s holding
and moved to dismiss the claims against them
with prejudice. Plaintiffs failed to file a response and
I granted State Defendants’ motion.
On October 19, 2018, AFSCME filed a Motion for
Judgment on the Pleadings or, Motion for Summary
Judgment. It argues that it has fully complied with
Janus, has no intention of doing otherwise, and
Plaintiffs' requested prospective relief is therefore
moot. It further argues that it is entitled to a good
faith defense against claims for monetary liability.
For the reasons discussed below, AFSCME's motion is
granted and this case is dismissed.
LEGAL STANDARD
Summary judgment is appropriate when there is
no genuine dispute of material fact and the movant is
entitled to judgment as a matter of law.2 Fed. R. Civ.
P. 56(a). The moving party bears the initial burden to
show an absence of a dispute of material fact. Rivera
v. Philip Morris, Inc., 395 F.3d 1142, 1146 (9th Cir.
2005). If the moving party meets its burden, the
burden shifts to the non-moving party to show that
there is a genuine dispute of material fact for trial. Id.
To meet its burden, “the non-moving party must do
more than show there is some metaphysical doubt as

2 Because the Court has considered material outside of the
pleadings in making its decision, the Court only assesses the
parties’ claims under the summary judgment standard.

App-16
to the material facts at issue.” In re Oracle Corp. Sec.
Litig., 627 F.3d 376, 387 (9th Cir. 2010).
The court must draw all reasonable inferences in
favor of the non-moving party. Sluimer v. Verity, Inc.,
606 F.3d 584, 587 (9th Cir. 2010). A “mere
disagreement or the bald assertion that a genuine
issue of material fact exists” is not sufficient to
preclude the grant of summary judgment. Harper v.
Wallingford, 877 F.2d 728, 731 (9th Cir. 1989). When
the non-moving party’s claims are factually
implausible, that party must “come forward with
more persuasive evidence than otherwise would be
necessary.” LVRC Holdings, LLC v. Brekka, 581 F.3d
1127, 1137 (9th Cir. 2009) (citation and internal
quotation marks omitted).
The substantive law governing a claim or defense
determines whether a fact is material. Miller v. Glenn
Miller Prod., Inc., 454 F.3d 975, 987 (9th Cir. 2006). If
the resolution of a factual dispute would not affect the
outcome of the claim, the court may grant summary
judgment. Id.
DISCUSSION
AFSCME argues that (i) Plaintiffs’ claims for
declaratory and injunctive relief are moot because
AFSCME stopped collecting agency fees after Janus,
and (ii) Plaintiffs’ claims for monetary relief—both
compensatory damages and restitution—must be
dismissed because pre-Janus agency fees were
collected in good faith reliance on state law and
controlling Supreme Court precedent.

App-17
With respect to mootness, Plaintiffs argue that
the voluntary cessation exception precludes
dismissing the claims for injunctive relief and that the
request for declaratory relief is not moot. With respect
to good faith, they argue that private parties have no
good faith defense in § 1983 First Amendment cases,
and even if they do, that AFSCME cannot claim good
faith. They also argue that allowing a good faith
defense would fly in the face of the Supreme Court’s
retroactivity doctrine.
I.

Mootness

AFSCME argues that Plaintiffs’ claims for
injunctive and declaratory relief are moot because
AFSCME immediately ceased its unconstitutional
practices after Janus and has no plan to reverse
course. Plaintiffs argue that the voluntary cessation
exception to mootness precludes summary judgment.
Article III of the Constitution grants federal
courts the authority to decide cases and controversies.
Already, LLC v. Nike, Inc., 568 U.S. 85, 90 (2013). “A
case becomes moot—and therefore no longer a Case or
Controversy for purposes of Article III—when the
issues presented are no longer live or the parties lack a
legally cognizable interest in the outcome.” Id. at 91,
(citation and internal quotation marks omitted).
However, the “voluntary cessation of allegedly illegal
conduct does not deprive the tribunal of power to hear
and determine the case” unless “interim relief or
events have completely and irrevocably eradicated the
effects of the alleged violation.” Cnty. Of Los Angeles
v. Davis, 440 U.S. 625, 631 (1979) (citation and

App-18
internal quotation marks omitted). A party asserting
mootness must also persuade the court that the
challenged conduct cannot reasonably be expected to
reoccur. Adarand Constructors, Inc. v. Slater, 528 U.S.
216, 222 (2000).
Ninth Circuit precedent provides the contours of
the voluntary cessation inquiry. Fikre v. FBI, 904 F.3d
1033, 1038 (9th Cir. 2018). First, the form of
government action is critical and can be dispositive. Id.
“A statutory change …is usually enough to render a
case moot, even if the legislature possesses the power
to reenact the statute after the lawsuit is dismissed.”
Native Vill. of Noatak v. Blatchford, 38 F.3d 1505,
1510 (9th Cir. 1994). As the Eight Circuit has
observed, the rigors of the legislative process “bespeak
... finality and not ... opportunistic tentativeness.”
Libertarian Party of Arkansas v. Martin, 876 F.3d 948,
951 (8th Cir. 2017). On the other hand, “an executive
action that is not governed by any clear or codified
procedures cannot moot a claim.” McCormack v.
Herzog, 788 F.3d 1017, 1025 (9th Cir. 2015).
A.

Injunctive Relief

Plaintiffs’ request for injunctive relief is moot. By
all indications, AFSCME has stopped collecting
agency fees from non-members: it submitted sworn
declarations and supporting exhibits evincing full
compliance with Janus.
For example, Jeneane Ramseier is the Fiscal
Director for AFSCME and submitted a sworn
declaration stating “AFSCME Council 75 has not

App-19
retained any fair-share fees deducted from any of the
plaintiffs' wages on or after June 27, 2018. None of the
plaintiffs had any fair-share fees deducted after June
30, 2018, and all fair-share fees deducted from any of
the plaintiffs’ wages for the month of June 2018 were
refunded.” Ramseier Decl. ¶¶ 5–7 (doc. 25). Similarly,
Nettie Pye, who is Oregon’s State Labor Relations
Manager for the Department of Administrative
Services (“DAS”), submitted a declaration stating that
“following Janus, DAS stopped making fair share
deductions from all non-union employees effective
June 1, 2018. DAS also issued reimbursements for fair
share fees collected in June 2018 to all non-union
employees.” Pye Decl. ¶¶ 3–4 (doc. 11).
AFSCME also provided copies of the letters it
sent to state employers who were collecting agency
fees on its behalf. See Ramseier Decl. Ex. A. These
letters requested that the recipient state employers
“[i]mmediately cease and desist the deduction of fair
share payments[ ] [and] [r]etain any fair share dues
that have been deducted but not yet paid to AFSCME,
and immediately reimburse employees for those
payments.” Id.
These declarations and letters demonstrate that
there is no live controversy between the parties
necessitating injunctive relief. Plaintiffs seek to enjoin
the very act that the petitioner in Janus sought to
declare unconstitutional. The Supreme Court agreed
with the Janus petitioner and AFSCME immediately
took steps to comply with its holding. Plaintiffs, then,
have received the benefit of their request and there is

App-20
no Article III case or controversy for me to enjoin. See
Danielson v. Inslee, 345 F. Supp. 3d 1336 (W.D. Wash.
2018) (also finding the state-defendants' declarations
of compliance with Janus and no evidence of
equivocation sufficient to find mootness); see also
Yohn v. California Teachers Ass’n, No. 8:17-cv-00202JLS-DFM, 2018 WL 5264076, at *5 (C.D. Cal. Sept.
28, 2018) (relying on Danielson and concluding the
same).
There is also no reasonable expectation that
AFSCME will resume collecting agency fees. A change
in Supreme Court case law coupled with evidence of
AFSCME’s compliance with that case law is an
interim event that precludes further legal violations.
Cnty. of Los Angeles, 440 U.S. at 631 (finding that
interim events and no reasonable expectation of
continued violations to be sufficient to establish
mootness). I see no reason to assume, without
evidence, AFSCME’s willingness to flagrantly violate
the law. While changes in the law resulting from
executive action can be reversed with relative ease, a
reversal of Supreme Court precedent is analogous to a
statutory change that “bespeaks finality” and is not a
change that could easily be altered. Therefore, the
voluntary cessation doctrine is inapplicable.
B.

Declaratory Relief

District courts must decide the merits of a
declaratory judgment claim even when an injunction
request becomes moot. Super Tire Eng’g Co. v.
McCorkle, 416 U.S. 115, 121-22 (1974). The test for
mootness in the declaratory judgment context is

App-21
whether there is a substantial controversy between
parties with adverse legal interests that are
sufficiently immediate to warrant declaratory relief.
Biodiversity Legal Found. v. Badgley, 309 F.3d 1166,
1174-75 (9th Cir. 2002) (citation and internal
quotation marks omitted). In other words, the issue is
“whether changes in the circumstances that prevailed
at the beginning of litigation have forestalled any
occasion for meaningful relief.” West v. Sec’y of Dep’t
of Transp., 206 F.3d 920, 925 n.4 (9th Cir. 2000)
(citation and internal quotation marks omitted).
Applying that standard here, Plaintiffs’ request
for declaratory relief is also moot. The Complaint
solicits a declaration “that all pertinent statutes,
rules,
regulations,
and
collective-bargaining
agreements that compel Plaintiffs to pay agency fees
to AFSCME ... are unconstitutional [and] null and
void.” Compl. at 8 (doc. 1). But the action in question,
i.e., the forced deduction of agency fees from their
paychecks and transfer to AFSCME, is not occurring.
There is simply no controversy, let alone an
immediate one, to warrant a declaratory judgment.
Such a declaration would therefore be an
impermissible advisory opinion. See Akina v. Hawaii,
835 F.3d 1003, 1011 (9th Cir. 2016) (citing Princeton
Univ. v. Schmid, 455 U.S. 100, 102 (1982) (per
curiam)) (“We do not sit to decide hypothetical issues
or to give advisory opinions about issues as to which
there are not adverse parties before us.”).
Plaintiffs argue that Janus only affected the
parties before it and does not impact other states’ laws

App-22
automatically. They insist that this Court needs to act
for Janus to be applied to Oregon's statutes and
AFSCME’s agreements with the State. But the
existence of potentially problematic agreements and
laws is not sufficient to overcome mootness.
In City of Los Angeles v. Lyons, for example, the
plaintiff alleged that he was the past victim of an
unconstitutional chokehold and that the police
department's unconstitutional chokehold policy still
existed. 461 U.S. 95, 98-99 (1983). Even so, the
Supreme Court concluded that his claim for
prospective relief against the policy did not present an
Article III case or controversy because the plaintiff
could not show a real risk of being personally subject
to the policy in the future. Id. at 111.
The same is true here: Janus held agency fees to
be unconstitutional and AFSCME stopped collecting
them. AFSCME submitted declarations and letters
demonstrating no real risk that Plaintiffs will be
subject to the laws, agreements, and conduct that they
challenge. No plaintiff is presently being required to
pay agency fees and none has posited a realistic
possibility that they will be required to do so in the
future. Therefore, the declaratory relief request is
moot.
II.

Good Faith Defense

AFSCME argues that it should not be held liable
for monetary damages because it relied in good faith
on presumptively valid state law that was
constitutional under then-binding Supreme Court

App-23
precedent. Plaintiffs make three arguments in
response: (i) the good faith defense is unavailable to
private parties for First Amendment violations in a
§ 1983 action; (ii) that even if good faith is available,
AFSCME cannot meet the defense’s requirements;
and (iii) allowing AFSCME to claim good faith would
run afoul of the Supreme Court’s retroactivity
doctrine. Each are addressed below.
A.

Private Parties & Good Faith in § 1983
Actions

The threshold question of whether the good faith
defense is available to private parties in § 1983 actions
has been answered affirmatively by the Ninth Circuit.
In Clement v. City of Glendale, the plaintiff
brought a § 1983 action against a towing company, an
officer in his individual capacity, and the City of
Glendale for towing her car from a hotel parking lot in
violation of the Fourteenth Amendment. 518 F.3d
1090, 1092-93 (9th Cir. 2008). The district court
granted summary judgment to the officer based on
qualified immunity and to the towing company based
on good faith. Id. at 1093. The Ninth Circuit affirmed.
Id. at 1097-98. It acknowledged that the Supreme
Court in Wyatt v. Cole and again in Richardson v.
McKnight had held open whether private defendants
could avail themselves of the good faith defense in a §
1983 action. Id. at 1096-97; Wyatt v. Cole, 504 U.S.
158, 169 (1992) (“[W]e do not foreclose the possibility
that private defendants faced with § 1983 liability ...

App-24
could be entitled to an affirmative defense based on
good faith.”); Richardson v. McKnight, 521 U.S. 399,
413-14 (1997) (“Wyatt explicitly stated that it did not
decide whether or not the private defendants before it
might assert, not immunity, but a special ‘good-faith’
defense ... we do not express a view on this lastmentioned question.”). But Clement found it
appropriate to allow the private towing company to
utilize the good faith defense through a facts and
circumstances analysis. Clement, 518 F.3d at 1097
(“[T]he facts of this case justify allowing Monterey
Tow Service to assert such a good faith defense.”).
To this Plaintiffs respond that a good faith
defense is nevertheless not available to private parties
in the First Amendment context and put forth the
following syllogism: that a good faith defense to a
constitutional tort is only available if an analogous
common law tort in 1871 contained an intent element;
that there are no analogous common law torts to First
Amendment free speech violations with an intent
element; that AFSCME committed a free speech
violation; and that it therefore cannot avail itself of
the good faith defense.
But Plaintiffs’ syllogism suffers from three flaws.
First, Plaintiffs[‘] argument fails because affirmative
defenses need not relate to or rebut specific elements
of an underlying claim. See Jarvis v. Cuomo, 660
F.App’x 72, 75-76 (2d Cir. 2016) (extending the good
faith defense to a private party in a § 1983 First

App-25
Amendment action and citing Black’s Law Dictionary
to distinguish between affirmative defenses and
standard defenses in rejecting a nearly identical
argument).
Second, Ninth Circuit precedent does not require
an analysis of pre-1871 common law torts for
extending the good faith defense against an alleged
constitutional violation. Instead, the Ninth Circuit's
analysis in Clement is more akin to the traditional
equitable basis for extending good faith than to a
formalistic analysis that would require an analogous
tort over 130 years ago. To warrant good faith, the
Clement court explained that the towing company “did
its best to follow the law ... the tow was authorized by
the police department [and it was] permissible under
both local ordinance and state law.” Clement, 518 F.3d
at 1097. The court also explained that the
“constitutional defect—a lack of notice to the car's
owner—could not have been observed by the towing
company at the time when the tow was conducted;
there would be no easy way for a private towing
company to know whether the owner had been
notified or not.” Id. The court was therefore more
concerned about the inequities of holding the private
towing company liable than by anchoring its analysis
with pre-1871 torts, or the fact that the defense was
being raised in a Fourteenth Amendment context
rather than in the context of some other constitutional
tort.

App-26
Third, there are analogous common law torts to
the First Amendment violation at issue in this case.
Namely, the common law tort of abuse of process,
which coincidentally was the cause of action in Wyatt.
504 U.S. at 164; see also Danielson v. AFSCME, 340
F. Supp. 3d 1083, 1086 (W.D. Wash. 2018) (finding
that defamation may also constitute an analogous tort
to plaintiff's First Amendment claim against the
union).
Abuse of process is a “cause[ ] of action against
private defendants for unjustified harm arising out of
the misuse of governmental processes.” Wyatt, 504
U.S. at 164. It required the plaintiff “to establish ...
both that the defendant acted with malice and without
probable cause.” Id. at 172 (Kennedy, J., joined by
Scalia, J., concurring).
Here, Plaintiffs’ First Amendment claim against
AFSCME
depends
on
AFSCME’s
use
of
governmental processes to collect agency fees.
AFSCME used a state law procedure in violation of
the First Amendment to deduct a portion of each nonmember's paycheck for the benefit of AFSCME and to
the detriment of Plaintiffs. And what makes
AFSCME’s action a § 1983 constitutional issue is its
use of the Oregon statutes authorizing the deduction
of agency fees from employees. The Oregon statutes
provide the necessary link between AFSCME’s
actions and the “under color of any statute”
requirement of a § 1983 claim. Had AFSCME’s

App-27
actions occurred prior to § 1983's enactment in 1871,
then, Plaintiffs could have brought their action under
an abuse
of process theory. The state-of-mind
requirement for an abuse of process claim is malice
and acting in good faith would preclude the claim
because it would negate the malice requirement.
Thus, good faith is not precluded even under
Plaintiffs' theory of the defense.
B.

AFSCME’s Good Faith Defense

I find that AFSCME is entitled to a good faith
defense against claims of monetary liability. See
Danielson, 340 F. Supp. 3d at 1085 (finding “ample
authority” for the good faith defense to apply under
nearly identical facts).
Courts have acknowledged that good faith is not
susceptible to a precise definition. See, e.g., In re Agric.
Research & Tech. Grp., 916 F.2d 528, 536 (9th Cir.
1990) (citing In re Roco Corp., 701 F.2d 978, 984 (1st
Cir. 1983)). The defense has been applied by the Ninth
Circuit without a precise articulation of its contours.
See, e.g., Clement, 518 F.3d at 1097 (not articulating a
standard for good faith for § 1983 claims but still
applying it).3 Nevertheless, traditional principles of
3 Plaintiffs also argue that even if the good faith is
available, that Clement sets out the “necessary factors” for this
defense and AFSCME cannot demonstrate these factors.
Nowhere does Clement characterize any of these “factors” as
“necessary.” And what Plaintiffs characterize as “factors” are
simply the circumstances that, in totality, persuaded the
Clement court to find the good faith defense appropriate.

App-28
equity and fairness are generally understood to
underpin the defense. Danielson, 340 F. Supp. 3d at
1085.
Here, AFSCME collected agency fees in
accordance with Oregon’s laws and then-controlling
Supreme Court precedent that upheld their
constitutionality. It would be highly inequitable to
hold private parties retroactively liable for § 1983
damages in such a circumstance. Much like the
defendant towing company in Clement, AFSCME’s
actions “appeared to be permissible under [the] law.”
Clement, 518 F.3d at 1097. It is highly relevant that
AFSCME, as the exclusive bargaining representative,
had an official role under Oregon’s public labor
relations statutes and a legal duty to represent all
employees within its respective bargaining unit. The
agency fees were collected pursuant to contracts with
public employers to pay the costs of that
representation. As such, AFSCME was not pursuing
its own private interests; its actions were good faith
attempts to comply with its statutory obligations.
Whether AFSCME subjectively believed that the
Supreme Court was poised to overrule Abood is
irrelevant, as reading the tea leaves of Supreme Court
dicta has never been a precondition to good faith
reliance on governing law. And so are any steps it took
to mitigate potential disruptions from Abood’s
possible reversal prior to Janus. Given the potentially
systemic effects of Supreme Court decisions in areas of

App-29
great public importance, failure to contingency plan
can be ruinous and AFSCME sensibly decided to
manage this risk. As the district court in Danielson
explained, “[a]ny subjective belief [the union] could
have had that the precedent was wrongly decided and
should be overturned would have amounted to
telepathy.” 340 F. Supp. 3d at 1086.
Precluding a good faith defense based on
subjective predictions of when the Supreme Court
would overrule precedent would also imperil the rule
of law. State officials are entitled to rely on Supreme
Court precedent in their official conduct, even if that
precedent's reasoning has been questioned. See Davis
v. United States, 564 U.S. 229, 241 (2011) (declining
to apply exclusionary rule to evidence generated in
searches that were consistent with then-binding case
law because police were entitled to rely on that
precedent, even though its reasoning had been
questioned); Pinsky v. Duncan, 79 F.3d 306, 313 (2d
Cir. 1996) (“[I]t is objectively reasonable to act on the
basis of a statute not yet held invalid.”). Similarly,
AFSCME justifiably relied on statutes that were valid
under Abood and holding it liable for monetary
damages solely because certain Justices had
expressed doubt about Abood’s reasoning would be
unworkable and highly inequitable. See Lemon v.
Kurtzman, 411 U.S. 192, 199 (1973) (“[S]tatutory or
even judge-made rules of law are hard facts on which
people must rely in making decisions and in shaping

App-30
their conduct.”). AFSCME is therefore entitled to a
good faith defense.
C.

Civil Retroactivity

Finally, Plaintiffs argue that the good faith
defense runs afoul of the Supreme Court's
retroactivity doctrine because Janus’s holding entitles
them to monetary damages.
Under the retroactivity doctrine, new Supreme
Court holdings are “controlling interpretation[s] of
federal law and must be given full retroactive effect in
all cases still open on direct review.” Harper v.
Virginia Dep’t of Taxation, 509 U.S. 86, 97 (1993). But
retroactive application of a new Supreme Court ruling
does not determine what remedy, if any, a party
should obtain. Davis, 564 U.S. at 243; see also
Reynoldsville Casket Co. v. Hyde, 514 U.S. 749, 750
(1995) (no retroactive liability where there is “a
previously existing, independent legal basis for
denying relief”).
Here, there is no indication that Janus intended
to open the floodgates to retroactive monetary relief.
Even if Janus does apply retroactively, it does not
mean that parties are always retroactively liable for
damages. In Davis v. United States, for example, the
petitioner alleged that the search of his car
subsequent to arrest violated the Fourth Amendment.
564 U.S. at 229. While his appeal was pending, the
Supreme Court announced a new rule governing

App-31
automobile searches incident to arrests which would
have required the exclusion of any evidence obtained
by the officer through his search of the petitioner’s car.
Id. A strict application of retroactivity would have
necessitated this result, but the Supreme Court
explained that such a result “erroneously conflates
retroactivity with remedy.” Id. at 230. Moreover, the
Supreme Court found that applying the good faith
exception to the exclusionary rule did not run afoul of
retroactivity. Id.
Applying Davis’s reasoning in the instant case
makes clear that allowing AFSCME to avail itself of
the good faith defense is not contrary to the
retroactivity doctrine. Just like the officer in Davis,
AFSCME was “in strict compliance with then-binding
[case] law and was not culpable in any way.” Id. at 22930. While this case was pending the Supreme Court
overturned Abood and announced a new rule in Janus
that made agency fees unlawful. AFSCME
immediately complied and, for the reasons outlined
above, I find that it is entitled to the good faith
defense. Since extending the good faith defense only
concerns the appropriate remedy for Plaintiffs, it is
consistent with the retroactivity doctrine.
CONCLUSION
For the reasons herein, the Court GRANTS
AFSCME’s Motion for Judgment on the Pleadings or,
Motion for Summary Judgment (doc. 24).

App-32
IT IS SO ORDERED
Dated this 28th day of February, 2019.
___________________
Ann Aiken
United States District Judge

App-33
Appendix G
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
WILLIAM HOUGH,

Case No. 18-cv-04902
-VC

Plaintiff,
v.
SEIU LOCAL 521,
Defendant.

AMENDED ORDER
GRANTING
MOTION FOR SUMMARY JUDGMENT
Re: Dkt. No. 29

Local 521’s motion for summary judgment is
granted. Janus v. American Federation of State,
County, & Municipal Employees, Council 31, 138 S.
Ct. 2448 (2018) does not entitle Hough to a refund of
the fair-share fees he paid before the ruling came
down. Assuming it’s necessary to inquire whether the
defendant’s good-faith reliance on then-existing law
bars Hough’s refund claim under 42 U.S.C. § 1983, the
defendant has indeed established good-faith reliance
as a matter of law. This is so for the reasons provided
in the following cases: Janus v. American Federation
of State, County, & Municipal Employees, Council 31,
No. 15 C 1235, 2019 WL 1239780, at *3 (N.D. Ill. Mar.
18, 2019); Carey v. Inslee, No. 3:18-CV-05208-RBL,
2019 WL 1115259, at *9 (W.D. Wash. Mar. 11, 2019);

App-34
Cook v. Brown, No. 6:18-CV-01085-AA, 2019 WL
982384, at *7 (D. Or. Feb. 28, 2019); Danielson v.
American Federation of State, County, & Municipal
Employees, Council 28, 340 F. Supp. 3d 1083, 1087
(W.D. Wash. 2018).
Moreover, considering this issue outside the
rubric of good-faith reliance, there is a strong
argument that when the highest judicial authority
has previously deemed conduct constitutional,
reversal of course by that judicial authority should
never, as a categorical matter, result in retrospective
monetary relief based on that conduct. Perhaps that’s
why the Supreme Court did not address whether Mr.
Janus himself was entitled to the refund he sought,
instead simply remanding for further proceedings.
Janus, 138 S. Ct. at 2486. At least in situations where
the Supreme Court has reversed a prior ruling but not
specified that the party before it is entitled to
retrospective monetary relief, it seems unlikely that
lower courts should even consider awarding
retrospective monetary relief based on conduct the
Court had previously authorized. Cf. Shah v. Pan Am.
World Servs., Inc., 148 F.3d 84, 91 (2d Cir. 1998); see
also Nunez-Reyes v. Holder, 646 F.3d 684, 691 (9th
Cir. 2011); Crowe v. Bolduc, 365 F.3d 86, 93 (1st Cir.
2004); Glazner v. Glazner, 347 F.3d 1212, 1216-21
(11th Cir. 2003).
IT IS SO ORDERED.

App-35
Dated: April 16, 2019
_________________________
VINCE CHHABRIA
United States District Judge

App-36
Appendix H
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
JENNI CHAMBERS, et
al.

Case No.
1685-SI

3:18-cv-

Plaintiffs,
v.

OPINION AND

AMERICAN FEDERATION OF STATE,
COUNTY, AND MUNICIPAL EMPLOYEES
INTERNATIONAL
UNION, AFL-CIO, et al.

ORDER

Defendants.
Milton L. Chappell, NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC., 8001 Braddock Road,
Suite 600, Springfield, VA
22151; James G.
Abernathy and Rebekah C. Millard, FREEDOM
FOUNDATION, PO Box 552, Olympia, WA 98507. Of
Attorneys for Plaintiffs.
Scott A. Kronland, P. Casey Pitts, Matthew J.
Murray, and Amanda C. Lynch, ALTSHULER BERZON
LLP, 177 Post Street, Suite 300, San Francisco, CA
94108; Margaret S. Oleny, BENNETT HARTMAN
MORRIS & KAPLAN LLP, 210 SW Morrison Street, Suite
500, Portland, OR 97204; James S. Coon, THOMAS,

App-37
COON, NEWTON & FROST, 820 SW Second Avenue,
Suite 200, Portland, OR 97204; James M. Weyland,
TEDESCO LAW GROUP, 12780 SE Stark Street,
Portland, OR 97233: Jeffrey W. Burritt, NATIONAL
EDUCATION ASSOCIATION, 1201 Sixteenth Street NW,
Eighth Floor, Washington, DC 20036. Of Attorneys
for Defendants.
Michael H. Simon, District Judge.
Plaintiffs are public employees in Oregon.1
Defendants are unions or their affiliates (collectively,
“Defendants” or the “Unions”) that exclusively
represent Plaintiffs in the public workplace.2 The
1 Plaintiffs are Jenni Chambers, Terry Godwin, Steven
Masuo, Bryan Quinlan, Marian Shadrin, Misty Staebler, Betty
Sumega, Gloria Carlson, Jacyn Gallagher, Lindsey Hart, Craig
Leech, and Matthew Puntney.
2 Defendants are American Federation of State, County,
and Municipal Employees International Union, AFL-CIO
(“AFSCME”), its Oregon state affiliate Oregon AFSCME Council
75, local affiliates Multnomah County Employees Union
AFSCME Local 88, AFSCME Local 3336, and City of Cornelius
Employees Union AFSCME Local 3786-2 (erroneously sued as
City of Cornelius Employees Union AFSCME Local 189);
National Education Association (“NEA”), its Oregon state
affiliate Oregon Education Association (“OEA”), and local
affiliates Southern Oregon Bargaining Council (“SOBC”) and
Three Rivers Education Association (“TREA”); Service
Employees International Union (“SEIU”), its Oregon state
affiliate SEIU Local 503 Oregon Public Employees Union
(“OPEU”), and local affiliates Marion County Employees
Association OPEU Local 294 and OPEU Linn County Local 390;
and the Association of Engineering Employees of Oregon
(“AEE”).

App-38
Unions negotiated collective bargaining agreements
(“CBAs”) with Plaintiffs’ public employers. These
CBAs established the terms and conditions of
employment for the relevant bargaining units.
Although Plaintiffs were not members of the Unions,
Oregon law had previously required Plaintiffs to pay
compulsory union fees, often by automatic deduction
from Plaintiffs’ wages, to the Unions as a condition of
Plaintiffs’ public employment. In addition, certain
provisions in Plaintiffs’ respective CBAs reinforced
this obligation. Plaintiffs did not consent to paying
these fees to the Unions.
Under Oregon’s Public Employee Collective
Bargaining Act (“PECBA”), Or. Rev. Stat. (“ORS”) §§
243.650-243.782 (2017), bargaining units of public
employees may choose, by majority vote, to form a
union for collective bargaining with public employers
about their terms and conditions of employment.
PECBA also had previously authorized public
employers and employee unions to enter into
agreements that required represented employees who
were not union members to pay “fair-share fees”3 to
cover their proportionate share of the costs of

3 Fair-share fees are sometimes called “agency fees,”
“service fees,” “representation fees,” or “payments-in-lieu-ofdues.” Plaintiffs call them “forced fee deductions.” In this
Opinion and Order, the Court will use the terms “forced fee
deductions,” “fair-share fees,” and “payments-in-lieu-of-dues”
interchangeably.

App-39
collective-bargaining representation. See ORS §
243.650(10) and (18) (2017); ORS § 243.666(1) (2017);
ORS § 243.672(1)(c) (2017); and ORS § 292.055(5)
(2017).4 In Abood v. Detroit Board of Education, 431
U.S. 209 (1977), the United States Supreme Court
explicitly upheld this practice of collecting compulsory
fair-share fees from public employees under state law.
It was also standard practice in public-sector
bargaining agreements throughout the United States
for more than 40 years. That all changed in June 2018,
when the Supreme Court overturned Abood in Janus
v. American Federation of State, County & Municipal
Employees, Council 31, ––– U.S. –––, 138 S. Ct. 2448
(2018). In Janus, the Supreme Court held that
collecting fair-share fees from nonconsenting public
sector employees violates the First Amendment rights
of those nonconsenting employees, no matter how the
fees were spent.
In September 2018, Plaintiff brought this
putative class action against Defendants. Plaintiffs
allege that the forced fee deductions, or fair-share
fees, violate their rights under the First and
Fourteenth Amendments and are actionable under 42
U.S.C. § 1983. Plaintiffs seek money damages and
declaratory relief. Plaintiffs also allege state a tort
claim of conversion of property for which they seek
replevin or restitution. Defendants have moved to
4

See n.7, infra.

App-40
dismiss or for summary judgment, and the Court will
treat Defendants’ motion as a motion for summary
judgment. Finally, the Court notes that a recent Ninth
Circuit decision, Danielson v. Inslee, 945 F.3d 1096
(2019), involves issues that are nearly identical to
those here and is binding precedent on this Court.5
For the reasons below, including the Ninth Circuit’s
decision in Danielson, Defendants’ motion for
summary judgment is granted.
STANDARDS
A party is entitled to summary judgment if the
“movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
The moving party has the burden of establishing the
absence of a genuine dispute of material fact. Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1986). The court
must view the evidence in the light most favorable to
the non-movant and draw all reasonable inferences in
the non-movant’s favor. Clicks Billiards Inc. v.
Sixshooters Inc., 251 F.3d 1252, 1257 (9th Cir. 2001).
Although “[c]redibility determinations, the weighing
of the evidence, and the drawing of legitimate
5 The Court also notes that the Ninth Circuit’s decision in
Danielson accords with the Seventh Circuit’s decisions in Janus
v. Am. Fed’n of State, Cty. & Mun. Emps., Council 31 (“Janus
II”), and the Sixth Circuit’s decision in Lee v. Ohio Educ. Ass’n,
951 F.3d 386 (6th Cir. 2020). Indeed, the Court is aware of no
contrary appellate caselaw.

App-41
inferences from the facts are jury functions, not those
of a judge . . . ruling on a motion for summary
judgment,” the “mere existence of a scintilla of
evidence in support of the plaintiff’s position [is]
insufficient...” Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 252, 255 (1986). “Where the record taken as
a whole could not lead a rational trier of fact to find
for the non-moving party, there is no genuine issue for
trial.” Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 587 (1986) (citation and quotation
marks omitted).
DISCUSSION
Defendants primarily make three arguments.
First, Defendants assert that Plaintiffs’ claims for
monetary relief should be dismissed because before
Janus Defendants collected fair-share fees in goodfaith reliance on state law and controlling Supreme
Court precedent. Second, Defendants maintain that
Plaintiffs cannot prevail on their state claim for
conversion and are not entitled to either replevin or
restitution. Finally, Defendants contend that
Plaintiffs’ request for declaratory relief is moot. In
response, Plaintiffs offer essentially four points. First,
Plaintiffs assert that “good faith” is not a recognized
defense for a private party against a claim under §
1983 for violating First Amendment rights. Second,
Plaintiffs contend that even if good faith were a
defense, Defendants have not established their good

App-42
faith. Third, Plaintiffs argue that they have presented
evidence of conversion under Oregon law as well as
their entitlement to the equitable remedy of
restitution. Fourth, Plaintiffs reject Defendants’
assertion of mootness. The Court will address each
point in turn.6
A.

Whether Good Faith Is Available as a
Defense for a Private Party in a § 1983 Claim

In Danielson, the Ninth Circuit addressed a case
involving almost identical facts, claims, and defenses.
The Ninth Circuit, agreeing with the Seventh Circuit,
stated:
We hold that the district court properly
dismissed Plaintiffs’ claim for monetary
relief against the Union. In so ruling, we join
the Seventh Circuit, the only other circuit to
have addressed the question before us. See
Janus v. Am. Fed’n of State, Cty. & Mun.
Emps., Council 31, 942 F.3d 352 (7th Cir.
2019) (“Janus II”); Mooney v. Ill. Educ.
Ass’n, 942 F.3d 368 (7th Cir. 2019). We
agree with our sister circuit that a union
defendant can invoke an affirmative defense
of good faith to retrospective monetary
liability under section 1983 for the agency
fees it collected pre-Janus, where its
conduct was directly authorized under both
6 In Danielson, the Ninth Circuit assumed without deciding
the retroactivity of the rule established in Janus. Danielson, 945
F.3d at 1099. This Court does likewise.

App-43
state law and decades of Supreme Court
jurisprudence. The Union was not required
to forecast changing winds at the Supreme
Court and anticipatorily presume the
overturning of Abood. Instead, we permit
private parties to rely on judicial
pronouncements of what the law is, without
exposing themselves to potential liability for
doing so.
Danielson, 945 F.3d at 1098-99. In that case, the
Ninth Circuit thoroughly explained its rationale. See
Danielson, 945 F.3d at 1099-102. There is no need to
repeat it here. Under binding Ninth Circuit precedent,
Defendants here may assert good faith as a complete
defense to Plaintiffs’ claim under § 1983.
B.

Whether Defendants Have Established
Good Faith as a Matter of Law

Plaintiffs argue that, even if good faith is
available as a defense, Defendants have not
established their good faith as a matter of law.
Plaintiffs make several arguments. First, Plaintiffs
state that Defendants subjectively “knew” that the
Supreme Court was likely to reverse Abood and hold
that mandatory fair-share fees are unconstitutional.
Second, Plaintiffs maintain that Defendants also
expected and planned for the outcome in Janus and
even used indemnity clauses, further reflecting their
legal uncertainty in the viability of Abood. Third,

App-44
Plaintiffs argue Defendants were not acting under
“close government supervision.”
Plaintiffs maintain that their evidence shows
that Defendants subjectively anticipated the Supreme
Court’s ruling in Janus and planned for its outcome,
including by using indemnity clauses. Even if that
were true, none of it is legally relevant. As did the
defendants in Danielson, Defendants here relied on
presumptively valid state law and then-binding
Supreme Court precedent. As the Ninth Circuit
explained in Danielson:
The Supreme Court has admonished the
circuit courts not to presume the overruling
of its precedents, irrespective of hints in its
decisions that a shift may be on the
horizon…We decline to hold private parties
to a different standard. It would be
paradoxical for the circuit courts to be
required to follow Abood until its overruling
in Janus, while private parties incur
liability for doing the same.
The ability of the public to rely on the courts’
pronouncements of law is integral to the
functioning of our judicial system. After all,
“[i]t is emphatically the province and duty of
the judicial department to say what the law
is.” Marbury v. Madison, 5 U.S. (1 Cranch)
137, 177, 2 L.Ed. 60 (1803). If private parties

App-45
could no longer rely on the pronouncements
of even the nation’s highest court to steer
clear of liability, it could have a
destabilizing impact on the judicial system.
Because the Union’s action was sanctioned
not only by state law, but also by directly onpoint Supreme Court precedent, we hold
that the good faith defense shields the
Union from retrospective monetary liability
as a matter of law.
Danielson, 945 F.3d at 1103-105 (citations omitted).
In addition, that Defendants planned for the
contingency that a Supreme Court majority,
depending on its membership, might someday
disagree and overturn 40 years of precedent, thereby
ending fair-share fee collections, is a reflection of
responsible planning and Defendants’ good faith
commitment to the rule of law. After Janus,
Defendants were able promptly to alert public
employers of the change in law, request that all fairshare fees cease immediately, and ensure that they
retained no further fair-share fees going forward. A
legal rule that provided a disincentive to such sound
contingency planning would delay compliance with
the law.
Further, the indemnification clauses in
Defendants’ CBAs have been standard contract terms

App-46
for decades because public employers relied on the
exclusive representative correctly to follow the
procedures for collecting fair-share fees set out in
Chicago Teachers Union v. Hudson, 475 U.S. 292
(1986). See, e.g., Cummings v. Connell, 316 F.3d 886,
898 (9th Cir. 2003) (discussing a similar
indemnification clause in a collective bargaining
agreement in 1995). The indemnification clauses thus
do not raise a genuine issue for trial about Defendants’
good faith. They simply clarified the liability of the
parties for any errors associated with the
administration of the system of collecting fair-share
fees. Finally, there is no requirement that a defendant
act under close government supervision or at
government instruction to maintain a defense of good
faith to a claim brought under § 1983.
C.

Whether Defendants Have Shown the
Absence of Conversion and Plaintiffs’ Lack
of Entitlement to Restitution as a Matter of
Law

The “rules of the common law” have force in
Oregon only “so far as the same . . . are not in conflict
with the Constitution or special enactments of the
Legislature.” Peery v. Fletcher, 93 Or. 43, 53 (1919). “If
the Legislature has expressed its will and that will
disagrees with the common law, the latter must give
way.” Nadstanek v. Trask, 130 Or. 669, 680 (1929); see
also Oatman v. Bankers’ & Merchants’ Mut. Fire Relief

App-47
Ass’n, 66 Or. 388, 400 (1913) (“So far as th[e] statute
is inconsistent with the common law, it supersedes it.
* * * It is the duty of the courts to give effect to the
statute[.]”).
The Oregon Legislative Assembly foreclosed any
common law conversion claim here by adopting
PECBA, “a comprehensive statutory scheme
authorizing and regulating collective bargaining
between municipal and other public employers and
employees.” Am. Fed’n of State Cty. & Mun. Emps. v.
City of Lebanon, 360 Or. 809, 815 (2017) (citation
omitted); see ORS § 243.650 et seq. Part of that
statutory scheme required that the unions represent
all bargaining unit workers, including Plaintiffs here.
See ORS 243.650(8) (2017); ORS § 243.666 (2017).
Another part authorized public employers to collect
fair-share fees and provide them to the unions to cover
the costs associated with collective-bargaining
representation. See ORS § 243.650(10) and (18)
(2017); ORS § 243.666(1) (2017); ORS § 243.672(1)(c)
(2017); and ORS § 292.055(5) (2017). Indeed, in their
Complaint, Plaintiffs acknowledge that Oregon
statutes authorized the collection of the fair-share fees
they now seek to recover. Complaint ¶52 (“the laws of
Oregon . . . authorized these automatic deductions and
transfer[s]…to defendants”); see also id. ¶¶2, 50-51
(acknowledging that deduction of fair-share fees was
“pursuant to” statute).

App-48
The adoption of statutes creating a laborrelations system that includes fair-share fees is
incompatible with an interpretation of Oregon
common law that imposes tort liability for conversion
on private parties for having received those fees while
those statutes were in force and while United States
Supreme Court precedent allowed precisely that
action. Holding Defendants liable for common law
conversion under these facts would be not only
“inconsistent with other applicable laws” but directly
in conflict with the regime established by the Oregon
Legislative Assembly. See Espinoza v. Evergreen
Helicopters, Inc., 359 Or. 63, 87 (2016); cf. Bell v. Pub.
Emps. Ret. Bd., 239 Or. App. 239, 251 (2010) (“Where,
as here, the relationship is created and defined by
statute, references to common-law relationships
cannot supersede the statutory framework that the
legislature actually established.”).
In addition, under Oregon common law,
“[c]onversion is an intentional exercise of dominion or
control over a chattel which so seriously interferes
with the right of another to control it that the actor
may justly be required to pay the other the full value
of the chattel.” Scott v. Jackson Cty., 244 Or. App. 484,
499 (2011) (quoting RESTATEMENT (SECOND) OF TORTS
§ 222A (1965)); see also Mustola v. Toddy, 253 Or. 658,
664 (1969). To state a claim for conversion under
Oregon law, Plaintiffs must allege that they were
entitled to “immediate possession” of the “chattel” at

App-49
issue. Willamette Quarries, Inc. v. Wodtli, 308 Or. 406,
413 (1989) (quoting Artman v. Ray, 263 Or. 529, 531
(1972)) (alterations omitted); see also Berry v. Blair,
209 Or. 15, 18 (1956); RESTATEMENT (SECOND) OF
TORTS § 225 (“Either the person in possession of the
chattel at the time of the conversion or the person then
entitled to its immediate possession may recover the
full value of the chattel at the time and place of the
conversion.”). Plaintiffs, however, had no right to
immediate possession of the fair-share fees they now
seek to recover at the time of the deductions, and
Plaintiff thus cannot state a claim for conversion.
Finally, under Oregon law, the fair-share fees
were not a “chattel” subject to conversion. Money can
qualify as chattel for purposes of a conversion claim
only “when the money was wrongfully received by the
party charged with conversion, or an agent is
obligated to return specific money to the party
claiming it.” Waggoner v. Haralampus, 277 Or. 601,
604 (1977) (citation omitted); see also Marquard v.
New Penn Fin., LLC, 2017 WL 4227685, at *6 (D. Or.
Sept. 22, 2017); Duty v. First State Bank of Or., 71 Or.
App. 611, 618 (1985). When the fair-share fees were
deducted from Plaintiffs’ wages, doing so was entirely
consistent with Oregon law and pre-Janus Supreme
Court precedent. Thus, at that time, the money was
not wrongfully received nor received by an agent with
an obligation to return it. There was, therefore, no
conversion.

App-50
Finally, to the extent that Plaintiffs are seeking
an equitable remedy of restitution under their
conversion claim, that avenue similarly is unavailing.
As the Ninth Circuit explained in Danielson:
Even accepting Plaintiffs’ restitutionary
premise, the equities do not weigh in favor
of requiring a refund of all agency fees
collected pre-Janus. The Union bears no
fault for acting in reliance on state law and
Supreme Court precedent. It collected and
spent fees under the assumption—
sanctioned by the nation’s highest court—
that its conduct was constitutional. And the
Union provided a service to contributing
employees in exchange for the agency fees it
received. Indeed, under Abood, the Union
was required to use those fees for collective
bargaining activities that inured to the
benefit of all employees it represented—an
exchange that cannot be unwound. It is true
that, under current law, the employees
suffered a constitutional wrong for which
they may have no viable means of
compensation if the good faith defense
prevails. Nonetheless, it would not be
equitable to order the transfer of funds from
one innocent actor to another, particularly
where the latter received a benefit from the
exchange. . . .Under the circumstances here,

App-51
the most equitable outcome is a prospective
change in the Union’s policy and practice
(which undisputedly occurred), without
retrospective monetary liability.
Danielson, 945 F.3d at 1103 (citations omitted).
Equity dictates the same result here.
D. Whether Plaintiffs’ Request for Declaratory
Judgment is Moot
In their Complaint, Plaintiffs request two
separate types of declaratory relief. First, Plaintiff ask
for a declaration
that all pertinent statutes, forced fee
provisions
of
collective-bargaining
agreements that compelled plaintiffs and
class members to pay nonmember fees to the
respective defendants and affiliates as a
condition of their employment, the
deductions of forced nonunion fees, and the
receipt and use of those forced deductions by
defendants are unconstitutional under the
First Amendment, as secured against state
infringement
by
the
Fourteenth
Amendment to the United States, and are
null and void[.]
Complaint, Prayer, ¶ B. Plaintiffs also ask for a
declaration

App-52
that defendants committed the tort of
conversion in entering into and enforcing
forced fee provisions and receiving and
using the respective plaintiffs’ and class
members’ forced fee deductions[.]
Complaint, Prayer, ¶ C. Because the Court finds that
Defendants did not commit the tort of conversion as a
matter of law, there is no basis for Plaintiffs’ second
request.
As to Plaintiffs’ first request, Oregon law no
longer allows what Plaintiffs call “forced fee
deductions,” what Defendants call “fair-share fees,”
and what Oregon calls “payments-in- lieu-of-dues.”7
Further, Defendants modified their behavior to
conform to the ruling in Janus immediately after the
Supreme Court announced that decision.
The Ninth Circuit has “routinely deemed cases
moot where ‘a new law is enacted during the pendency
of an appeal and resolves the parties’ dispute.’” Log
Cabin Republicans v. United States, 658 F.3d 1162,
1166 (9th Cir. 2011) (quoting Qwest Corp. v. City of
Surprise, 434 F.3d 1176, 1181 (9th Cir. 2006)). This
rule applies with equal force to intervening changes in
the applicable case law. See, e.g., Aikens v. California,
7 In 2019, the Oregon Legislative Assembly amended ORS
§ 243.666 and repealed both ORS § 243.776 and ORS § 292.055,
effective January 1, 2020. See Chapter 429 Oregon Laws 2019
(HB 2016) §§ 9 and 19.

App-53
406 U.S. 813, 814 (1972); Smith v. Univ. of Wash., 233
F.3d 1188, 1195 (9th Cir. 2000). For example, in
Aikens, the Supreme Court dismissed as moot a
California prisoner’s pending federal constitutional
challenge to California’s death penalty statute “based
on the intervening decision of the California Supreme
Court in People v. Anderson, 6 Cal. 3d 628 (1972),”
which had “declared capital punishment in California
unconstitutional under … the state constitution.” 406
U.S. at 814. The petitioner in that case “no longer
face[d] a realistic threat of execution, and the issue on
which certiorari was granted—the constitutionality of
the death penalty under the Federal Constitution—
[was] now moot in his case.” Id. Soon after the
Supreme Court decided Janus, the Oregon legislature
changed Oregon law and Defendants ceased their
challenged actions. Plaintiffs’ request for a
declaratory judgment addressing Defendants’ past
conduct that is no longer occurring or even permitted
under state law is moot.
CONCLUSION
Defendants’ motion for summary judgment (ECF
32) is GRANTED. This case is dismissed.
IT IS SO ORDERED.
DATED this 31st day of March, 2020.
/s/ Michael H. Simon
Michael H. Simon
United States District Judge

App-54
Appendix I
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DALE DANIELSON, a
Washington State employee;
BENJAMIN RAST, a
Washington State employee;
TAMARA ROBERSON, a
Washington State employee;
employee; as individuals, and
on behalf of all others
similarly situated,
Plaintiffs-Appellants,
v.
JAY ROBERT INSLEE, in his
official capacity as Governor
of the State of Washington;
DAVID SCHUMACHER, in his
official capacity as Director of
Washington State Office of
Financial Management;
AMERICAN FEDERATION OF
STATE, COUNTY, AND
MUNICIPAL EMPLOYEES,
COUNCIL 28, AFL-CIO, a
labor organization,
Defendants-Appellees.

No. 18-36087
D.C. No.
3:18-cv-05206RJB

OPINION

App-55
Appeal from the United States District Court for the
Western District of Washington
Robert J. Bryan, District Judge, Presiding
Argued and Submitted November 6, 2019
Seattle, Washington
Filed December 26, 2019
Before: Ronald M. Gould and Jacqueline H. Nguyen,
Circuit Judges, and Gregory A. Presnell*, District
Judge.
Opinion by Judge Nguyen
_________________________________________________
SUMMARY
__________________________________________________________________________

Civil Rights
The panel affirmed the district court’s dismissal
of a claim for monetary relief bought pursuant to 42
U.S.C. § 1983 by public sector employees against their
union following the Supreme Court’s decision in
Janus v. American Federation of State, County, &
Municipal Employees, Council 31, 138 S. Ct. 2448

* The Honorable Gregory A. Presnell, United States District
Judge for the Middle District of Florida, sitting by designation.


This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

App-56
(2018), which held that the compulsory collection of
agency fees by unions violates the First Amendment.
Prior to the Supreme Court’s decision in Janus,
public sector unions around the country relied on the
Supreme Court’s decision in Abood v. Detroit Board
of Education, 431 U.S. 209 (1977), which held that the
unions could collect compulsory agency fees from
nonmembers to finance their collective bargaining
activities, without running afoul of the First and
Fourteenth Amendments. State laws and regulations
further entrenched the union agency shop into the
local legal framework. In 2018, the Supreme Court
uprooted its precedent by overturning Abood.
Immediately thereafter, the defendant Union stopped
collecting mandatory fees from nonmembers.
Plaintiffs subsequently brought suit seeking, among
other things, a refund of all agency fees that were
allegedly unlawfully collected from plaintiffs prior to
the Supreme Court’s decision in Janus.
Joining the Seventh Circuit, the panel held that
private parties may invoke an affirmative defense of
good faith to retrospective monetary liability under 42
U.S.C. § 1983, where they acted in direct reliance on
then-binding Supreme Court precedent and
presumptively-valid state law. See Janus v. Am. Fed’n
of State, Cty. & Mun. Emps., Council 31, 942 F.3d 352
(7th Cir. 2019) (“Janus II”); Mooney v. Ill. Educ. Ass’n,
942 F.3d 368 (7th Cir. 2019). The panel held that the

App-57
good faith affirmative defense applied as a matter of
law, and the district court was right to dismiss
plaintiffs’ claim for monetary relief.
_________________________________________________
COUNSEL
Jonathan F. Mitchell (argued), Mitchell Law PLLC,
Austin, Texas; Talcott J. Franklin, Talcott Franklin
PC, Dallas, Texas; Eric Stahlfeld, Freedom
Foundation, Olympia, Washington; Christopher
Hellmich, Hellmich Law Group P.C., Anaheim Hills,
California; for Plaintiffs-Appellants.
P. Casey Pitts (argued), Scott Kronland, and Matthew
J. Murray, Altshuler Berzon LLP, San Francisco,
California; Edward E. Younglove III, Younglove &
Coker
P.L.L.C.,
Olympia,
Washington;
for
Defendants-Appellees.
OPINION
NGUYEN, Circuit Judge:
“Stare decisis—in English, the idea that today’s
Court should stand by yesterday’s decisions—is ‘a
foundation stone of the rule of law.’” Kimble v. Marvel
Entm’t, LLC, 135 S. Ct. 2401, 2409 (2015) (quoting
Michigan v. Bay Mills Indian Cmty., 572 U.S. 782, 798
(2014)). But on rare occasion, even longstanding
precedent can be overruled. What happens when the
Supreme Court reverses course, but private parties

App-58
have already acted in reliance on longstanding bedrock
precedent?
This question lies at the center of this appeal. For
over 40 years, public sector unions around the country
relied on the Supreme Court’s decision in Abood v.
Detroit Board of Education, 431 U.S. 209 (1977),
which held that the unions could collect compulsory
agency fees from nonmembers to finance their
collective bargaining activities, without running afoul
of the First and Fourteenth Amendments. State laws
and regulations further entrenched the union agency
shop into the local legal framework. But in 2018, the
Supreme Court uprooted its precedent by overturning
Abood. In Janus v. American Federation of State,
County, & Municipal Employees, Council 31, 138 S. Ct.
2448 (2018), the Supreme Court held that unions’
compulsory collection of agency fees violated the
Constitution.
Many public sector unions, including the
defendant union here, immediately stopped collecting
agency fees. But uncertainty remained as to whether
they would be monetarily liable for their pre-Janus
conduct—conduct that was once explicitly authorized
under Abood and state law.
Throughout the country, public sector employees
brought claims for monetary relief against the unions
pursuant to 42 U.S.C. § 1983. Many unions asserted a
good faith defense in response. Joining a growing

App-59
consensus, the district court here ruled in favor of the
union. We affirm and hold that private parties may
invoke an affirmative defense of good faith to
retrospective monetary liability under 42 U.S.C. §
1983, where they acted in direct reliance on thenbinding Supreme Court precedent and presumptivelyvalid state law.
I. FACTS AND PROCEDURAL HISTORY
A.

Factual Background

Plaintiffs are Washington state employees who
work within bargaining units exclusively represented
by the American Federation of State, County, and
Municipal Employees, Council 28, AFL-CIO (the
“Union”). Plaintiffs are not members of the Union and
object to financing its activities. Nonetheless, until
recently, they were required to pay agency fees to the
Union. Collection of agency fees from nonmembers
was authorized by the governing collective bargaining
agreement, by Washington law, and by over four
decades of U.S. Supreme Court precedent dating back
to Abood.
On June 27, 2018, the Supreme Court issued its
decision in Janus, reversing course on the
constitutionality of the traditional agency shop
regime. Janus overruled Abood and held that the
mandatory collection of agency fees from objectors
violated the First Amendment. 138 S. Ct. at 2486. It

App-60
is undisputed that, immediately thereafter, the Union
stopped collecting mandatory fees from nonmembers.
B.

Procedural Background

On March 15, 2018, Plaintiffs brought a putative
class action pursuant to 42 U.S.C. § 1983 against Jay
Inslee, in his official capacity as Governor of
Washington; David Schumacher, in his official
capacity as Director of the Washington Office of
Financial Management; and the Union. In
anticipation of the Supreme Court’s decision in Janus,
Plaintiffs alleged that the imposition of compulsory
agency fees violated their constitutional rights under
the First and Fourteenth Amendments. They sought
declaratory and injunctive relief, a refund of “all
agency fees that were unlawfully collected from
Plaintiffs and their fellow class members,” and an
award of attorney’s fees and costs.
In the wake of Janus and changes to the Union’s
practices, the district court determined that the
claims against Inslee and Schumacher (the “State
Defendants”) for declaratory and injunctive relief
were moot, and they were dismissed from the case.1
Shortly thereafter, the Union filed a motion for
judgment on the pleadings or summary judgment.
The Union argued that the claims for declaratory and

1 Plaintiffs sought monetary relief from only the Union, not
the State Defendants.

App-61
injunctive relief should be dismissed as moot, as the
parallel claims against the State Defendants had
been. The Union further argued that the claim for
monetary relief should be dismissed because it had
relied in good faith on presumptively-valid state law
and then-binding Supreme Court precedent. The
district court granted the Union’s motion as to all
claims and dismissed the case. Plaintiffs then sought
reconsideration of the ruling, which the district court
denied. This appeal timely followed.2
II. STANDARD OF REVIEW
We have jurisdiction pursuant to 28 U.S.C. §
1291. We review de novo an order granting summary
judgment or judgment on the pleadings. Heliotrope
Gen., Inc. v. Ford Motor Co., 189 F.3d 971, 975, 978
(9th Cir. 1999).
III. DISCUSSION
We hold that the district court properly dismissed
Plaintiffs’ claim for monetary relief against the Union.
In so ruling, we join the Seventh Circuit, the only
other circuit to have addressed the question before us.
See Janus v. Am. Fed’n of State, Cty. & Mun. Emps.,
Council 31, 942 F.3d 352 (7th Cir. 2019) (“Janus II”);

2 On appeal, Plaintiffs argue only that the district court
erred in dismissing their claim for monetary relief against the
Union. They do not contest the dismissal of their claims for
declaratory and injunctive relief.

App-62
Mooney v. Ill. Educ. Ass’n, 942 F.3d 368 (7th Cir.
2019). We agree with our sister circuit that a union
defendant can invoke an affirmative defense of good
faith to retrospective monetary liability under section
1983 for the agency fees it collected pre-Janus, where
its conduct was directly authorized under both state
law and decades of Supreme Court jurisprudence. The
Union was not required to forecast changing winds at
the Supreme Court and anticipatorily presume the
overturning of Abood. Instead, we permit private
parties to rely on judicial pronouncements of what the
law is, without exposing themselves to potential
liability for doing so.
1.

We assume the retroactivity of the rule
established in Janus, but that does not
answer the remedial question before
this court.

As an initial matter, Plaintiffs urge the
retroactive application of the Supreme Court’s
decision in Janus. But, like the Seventh Circuit, we
find it unnecessary to “wrestle the retroactivity
question to the ground.” Janus II, 942 F.3d at 360.
The Supreme Court has made clear that right and
remedy must not be conflated, and that retroactivity
of a right does not guarantee a retroactive remedy.
Davis v. United States, 564 U.S. 229, 243 (2011).
Therefore, we will assume that the right delineated in
Janus applies retroactively and proceed to a review of
available remedies.

App-63
2.

A private entity may avail itself of a
good faith defense in litigation brought
pursuant to 42 U.S.C. § 1983.

The Supreme Court has held that private parties
sued under 42 U.S.C. § 1983 cannot claim qualified
immunity, but it has suggested in dicta that such
parties might be able to assert a good faith defense to
liability instead. Wyatt v. Cole, 504 U.S. 158, 168–69
(1992); Lugar v. Edmondson Oil Co., 457 U.S. 922, 942
n.23 (1982). Although the Supreme Court has never
squarely reached the question, we held in Clement v.
City of Glendale that private parties may invoke a
good faith defense to liability under section 1983.3 518
F.3d 1090, 1096–97 (9th Cir. 2008).
Plaintiffs argue that Clement should be
disregarded. They contend the Ninth Circuit
previously reached a contrary outcome in Howerton v.
Gabica, 708 F.2d 380 (9th Cir. 1983), and a threejudge panel cannot overturn existing precedent.
Because “we are required to reconcile prior
precedents if we can do so,” we first assess whether
Clement and Howerton are truly at odds. Cisneros3 Every other circuit that has considered the issue agrees.
Janus II, 942 F.3d at 364; Jarvis v. Cuomo, 660 F. App’x 72, 75
(2d Cir. 2016); Pinsky v. Duncan, 79 F.3d 306, 311-12 (2d Cir.
1996); Vector Research, Inc. v. Howard & Howard Attorneys P.C.,
76 F.3d 692, 699 (6th Cir. 1996); Jordan v. Fox, Rothschild,
O’Brien & Frankel, 20 F.3d 1250, 1276 (3d Cir. 1994); Wyatt v.
Cole, 994 F.2d 1113, 1118 (5th Cir. 1993).

App-64
Perez v. Gonzales, 465 F.3d 386, 392 (9th Cir. 2006).
We find the two decisions reconcilable. Howerton
stands for the unremarkable proposition that private
parties cannot avail themselves of qualified immunity
to a section 1983 lawsuit. 708 F.2d at 385 n.10. Both
the Supreme Court and later panels of our court have
adopted that reading of Howerton. See, e.g., Wyatt v.
Cole, 504 U.S. 158, 161 (1992) (citing Howerton for the
proposition that the Ninth Circuit has held that
private parties acting under color of state law are not
entitled to qualified immunity); F.E. Trotter, Inc. v.
Watkins, 869 F.2d 1312, 1318 (9th Cir. 1989) (citing
Howerton for the proposition that “the Ninth Circuit
has stated that private defendants are not entitled to
qualified immunity in section 1983 actions”).
Although Howerton used the somewhat less
precise language of a “good faith immunity,” 708 F.2d
at 385 n.10, we do not read the decision to foreclose a
good faith affirmative defense. Indeed, Howerton cited
favorably to Lugar, 457 U.S. at 942 n.23, for the
proposition that “compliance with [a] statute might be
raised as an affirmative defense” to section 1983
liability. 708 F.2d at 385 n.10. As the Supreme Court
has explained, “a distinction exists between an
‘immunity from suit’ and other kinds of legal
defenses.” Richardson v. McKnight, 521 U.S. 399, 403
(1997); see also Mitchell v. Forsyth, 472 U.S. 511, 526
(1985) (holding that qualified immunity “is an
immunity from suit rather than a mere defense to

App-65
liability”). We assume the Howerton court appreciated
that distinction and grappled only with the former.
Thus, the Clement court acted well within its
authority to find that, while private parties cannot
assert an immunity to suit under section 1983, they
can invoke a good faith defense.4 We are bound by
Clement, which is dispositive as to the threshold
question presented by Plaintiffs.
Plaintiffs also argue that an entity cannot invoke
the good faith defense, just as a municipality cannot
invoke qualified immunity. This argument, however,
runs counter to Clement, in which we applied the good
faith defense to an entity defendant. Plaintiffs’
argument is also at odds with the purpose underlying
the good faith defense: that private parties should be
entitled to rely on binding judicial pronouncements
and state law without concern that they will be held
retroactively liable for changing precedents. This
principle applies equally to a private entity as it does
to a private individual.

4 Clement is not alone in presuming that Ninth Circuit
precedent did not foreclose a good faith defense. For example, in
Jensen v. Lane County, we considered it an open question
whether a private party could invoke “an affirmative good faith
defense” to section 1983 liability. 222 F.3d 570, 580 n.5 (9th Cir.
2000).

App-66
3.

The good faith defense is not limited by
the availability of a similar defense to
the most closely analogous common law
tort. But, even if it were, the closest
analogue allows a good faith defense.

Plaintiffs contend that any good faith defense
must be confined to claims for which the most closely
analogous common law tort carried a similar
immunity. Plaintiffs argue that conversion is the
closest common law analogue to their claim against
the Union, that good faith is no defense to conversion,
and therefore that good faith can provide no defense
to liability here. Plaintiffs derive this argument from
the Supreme Court’s discussion of the history of
qualified immunity in Wyatt v. Cole:
Section 1983 creates a species of tort liability
that on its face admits of no immunities.
Nonetheless, we have accorded certain
government officials either absolute or
qualified immunity from suit if the tradition
of immunity was so firmly rooted in the
common law and was supported by such
strong policy reasons that Congress would
have specifically so provided had it wished to
abolish the doctrine. If parties seeking
immunity were shielded from tort liability
when Congress enacted the Civil Rights Act
of 1871—§ 1 of which is codified at 42
U.S.C. § 1983—we infer from legislative

App-67
silence that Congress did not intend to
abrogate such immunities when it imposed
liability for actions taken under color of
state law . . . In determining whether there
was an immunity at common law that
Congress intended to incorporate in the
Civil Rights Act, we look to the most closely
analogous torts . . . .
504 U.S. 158, 163-64 (1992) (internal citations and
quotation marks omitted).
Plaintiffs’ argument fails for several reasons.
First, the above passage applies only to Wyatt’s
discussion of qualified immunity, not to the good faith
affirmative defense on which Wyatt expressly reserved
judgment. The rationales behind the two doctrines,
and their limitations, are not interchangeable. Accord
Janus II, 942 F.3d at 365 (“As several district courts
have commented, the Supreme Court in Wyatt I
embarked on the search for the most analogous tort
only for immunity purposes—the Court never said
that the same methodology should be used for the
good-faith defense.”).
Second, even qualified immunity is no longer
constrained by a common law tort analogy. See Wyatt,
504 U.S. at 166 (noting that “Harlow ‘completely
reformulated qualified immunity along principles not
at all embodied in the common law’” (quoting
Anderson v. Creighton, 483 U.S. 635, 645 (1987))); see

App-68
also Ziglar v. Abbasi, 137 S. Ct. 1843, 1871
(2017)
(Thomas, J., dissenting) (explaining that
contemporary courts no longer “ask[] whether the
common law in 1871 would have accorded immunity
to an officer for a tort analogous to the plaintiff's claim
under § 1983,” but “instead grant immunity to any
officer whose conduct ‘does not violate clearly
established statutory or constitutional rights of which
a reasonable person would have known’” (quoting
Mullenix v. Luna, 136 S. Ct. 305, 308 (2015) (per
curiam))). The Supreme Court itself has emphasized
that it “never suggested that the precise contours of
official immunity can and should be slavishly derived
from the often arcane rules of the common law.”
Anderson, 483 U.S. at 645.
Third, in Clement, we did not limit the
applicability of the good faith defense to common law
analogues. 518 F.3d at 1096–97 (9th Cir. 2008). Our
decision in Clement was driven not by the strictures of
common law, but rather by principles of equality and
fairness—which the Supreme Court likewise
indicated could lay the foundation for a good faith
defense to section 1983 liability. See id. (applying the
good faith defense because “[t]he company did its best
to follow the law and had no reason to suspect that
there would be a constitutional challenge to its
actions,” and “the constitutional violation arose from
the inactions of the police rather than from any act or
omission by the towing company”); Wyatt, 504 U.S. at

App-69
168 (citing “principles of equality and fairness” as the
basis for a potential good faith defense).
Fourth, Plaintiffs’ proposed constraints are
contrary to the principles underlying the good faith
defense. As noted, the availability of the defense arises
out of general principles of equality and fairness—
values that are inconsistent with rigid adherence to
the oft-arbitrary elements of common law torts as they
stood in 1871. It would be an odd result for an
affirmative defense grounded in concerns for equality
and fairness to hinge upon historical idiosyncrasies
and strained legal analogies for causes of action with
no clear parallel in nineteenth century tort law. We
would find it neither “equal” nor “fair” for a private
party’s entitlement to a good faith defense to turn not
on the innocence of its actions but rather on the
elements of an 1871 tort that the party is not charged
with committing.
Finally, even if we adopted the common-lawanalogue rule, Plaintiffs’ position would still fail.
Contrary to Plaintiffs’ contention, conversion is not
the closest common law analogue to the First
Amendment violation alleged in this case. Plaintiffs’
First Amendment claim arises not from the taking of
their property, but from their compelled speech on
behalf of a cause they do not endorse. The
unprivileged confiscation of funds from employees’
paychecks, on its own, would yield no cognizable First

App-70
Amendment violation. Moreover, unlike in a
traditional conversion case, the Union did not collect
agency fees in contravention of state law; the key
theme underlying Plaintiffs’ section 1983 cause of
action is that the Union collected agency fees in accord
with state law. For these reasons, conversion bears
little substantive similarity to Plaintiffs’ claim.
Rather, we agree with our sister circuit that
abuse of process provides the best analogy to
Plaintiffs’ claim.5 Janus II, 942 F.3d at 365. At
common law, abuse of process “provided [a] cause[] of
action against private defendants for unjustified harm
arising out of the misuse of governmental processes.”
Wyatt, 504 U.S. at 164. Although the prototypical
abuse of process claim involves the abuse of judicial
process, the tort is not clearly so confined. Here, the
fundamental premise for section 1983 liability against
the Union is its alleged abuse of processes authorized
by Washington law—the agency shop regime and its
concomitant agency fee collection protocol—toward
unconstitutional ends. Indeed, it is the use of
governmental processes by the Union that supplies
the “color of law” element required to state a claim
under section 1983.

5 We agree with the Seventh Circuit that “[n]one of these
torts is a perfect fit, but they need not be,” as the search for a
common law analogue is “inherently inexact.” Janus II, 942 F.3d
at 365.

App-71
Adopting abuse of process as the appropriate
common- law analogue poses no barrier to the Union’s
invocation of a good faith defense. This is because, at
common law, a private party could avoid liability for
abuse of process if it acted in good faith. Id. at 164; id.
at 172 (Kennedy, J., concurring); id. at 176
(Rehnquist, C.J., dissenting).
4.

Plaintiffs’ labeling of their claim as
restitutionary
does
not
preclude
application of the good faith defense.

Plaintiffs argue that any good faith defense is
limited to liability for damages, whereas they seek
restitution from the Union for agency fees collected in
contravention of Janus. They contend that “a
defendant’s good faith will never allow it to keep the
property or money that it took in violation of another’s
constitutional rights,” even if good faith might provide
a shield to liability for additional damages.
As an initial matter, Plaintiffs’ restitutionary
premise is flawed. Plaintiffs’ constitutionally
cognizable injury is the intangible dignitary harm
suffered from being compelled to subsidize speech
they did not endorse. It is not the diminution in their
assets from the payment of compulsory agency fees.
Accordingly, Plaintiffs seek compensatory damages,
not true restitution, when they pray for a monetary
award in the amount of the agency fees they paid to
the Union. The labeling of the relief sought in

App-72
restitutionary terms does not change the underlying
nature of Plaintiffs’ claim.
Even accepting Plaintiffs’ restitutionary premise,
the equities do not weigh in favor of requiring a refund
of all agency fees collected pre-Janus. The Union
bears no fault for acting in reliance on state law and
Supreme Court precedent. It collected and spent fees
under the assumption—sanctioned by the nation’s
highest court—that its conduct was constitutional.
And the Union provided a service to contributing
employees in exchange for the agency fees it received.
Indeed, under Abood, the Union was required to use
those fees for collective bargaining activities that
inured to the benefit of all employees it represented—
an exchange that cannot be unwound. It is true that,
under current law, the employees suffered a
constitutional wrong for which they may have no
viable means of compensation if the good faith defense
prevails. Nonetheless, it would not be equitable to
order the transfer of funds from one innocent actor to
another, particularly where the latter received a
benefit from the exchange. Accord Ellis v. Bhd. of Ry.,
Airline & S.S. Clerks, Freight Handlers, Exp. &
Station Emps., 466 U.S. 435, 454–55 (1984)
(expressing “doubt that the equities call for a refund”
of compulsory payments made by employees to their
union, even if the practice ran afoul of the law, because
objecting employees received a service in exchange for
their money); Janus II, 942 F.3d at 367 (“[T]hough

App-73
[plaintiff] contends that he did not want any of the
benefits of [the union’s] collective bargaining and
other representative activities over the years, he
received them. Putting the First Amendment issues .
. . to one side, there was no unjust ‘windfall’ to the
union . . . but rather an exchange of money for
services.”). Under the circumstances here, the most
equitable outcome is a prospective change in the
Union’s policy and practice (which undisputedly
occurred), without retrospective monetary liability.
5.

The good faith defense applies to the
Union as a matter of law, because the
Union was not required to anticipate
the
overturning
of
then-binding
precedent.

The Union’s assertion of a good faith affirmative
defense is sound, but that does not fully answer the
question before this court. We must next determine
whether the district court correctly found that the
good faith defense shielded the Union from
retrospective monetary liability as a matter of law.
In collecting compulsory agency fees, the Union
relied on presumptively-valid state law and thenbinding Supreme Court precedent. The Union now
faces an assertion of monetary liability not for flouting
that law or misinterpreting its bounds, but for
adhering to it. Although some justices had signaled
their disagreement with Abood in the years leading up
to Janus, Abood remained binding authority until it

App-74
was overruled.6 We agree with our sister circuit that
“[t]he Rule of Law requires that parties abide by, and
be able to rely on, what the law is, rather than what
the readers of tea-leaves predict that it might be in the
future.” Janus II, 942 F.3d at 366.
The Supreme Court has admonished the circuit
courts not to presume the overruling of its precedents,
irrespective of hints in its decisions that a shift may
be on the horizon. See Rodriguez de Quijas v.
Shearson/Am. Exp., Inc., 490 U.S. 477, 484 (1989) (“If
a precedent of this Court has direct application in a
case, yet appears to rest on reasons rejected in some
other line of decisions, the Court of Appeals should
follow the case which directly controls, leaving to this
Court the prerogative of overruling its own
decisions.”); Nunez-Reyes v. Holder, 646 F.3d 684, 692
(9th Cir. 2011) (“As a circuit court, even if recent
Supreme Court jurisprudence has perhaps called into
question the continuing viability of its precedent, we
are bound to follow a controlling Supreme Court
precedent until it is explicitly overruled by that
Court.” (internal quotation marks and brackets
omitted)). We decline to hold private parties to a
different standard. It would be paradoxical for the

6 Indeed, not long before Janus, the Supreme Court
affirmed the judgment of this court on the same question
presented—albeit by an equally divided court. Friedrichs v. Cal.
Teachers Ass’n, 136 S. Ct. 1083 (2016). Although the outcome in
Janus may have been the writing on the wall, it was not a
foregone conclusion.

App-75
circuit courts to be required to follow Abood until its
overruling in Janus, while private parties incur
liability for doing the same.
The ability of the public to rely on the courts’
pronouncements of law is integral to the functioning
of our judicial system. After all, “[i]t is emphatically
the province and duty of the judicial department to
say what the law is.” Marbury v. Madison, 5 U.S. (1
Cranch) 137, 177 (1803). If private parties could no
longer rely on the pronouncements of even the nation’s
highest court to steer clear of liability, it could have a
destabilizing impact on the judicial system.
Because the Union’s action was sanctioned not
only by state law, but also by directly on-point
Supreme Court precedent, we hold that the good faith
defense shields the Union from retrospective
monetary liability as a matter of law. In so ruling, we
join a growing consensus of courts across the nation.7
7 See Janus II, 942 F.3d 352; Mooney, 942 F.3d 368; Aliser
v. SEIU Cal., No. 19-CV-00426-VC, 2019 WL 6711470, at *1
(N.D. Cal. Dec. 10, 2019); Wenzig v. Serv. Emps. Int’l Union Local
668, No. CV 1:19-1367, 2019 WL 6715741, at *10 (M.D. Pa. Dec.
10, 2019); Hamidi v. SEIU Local 1000, No. 2:14-CV-00319, 2019
WL 5536324 (E.D. Cal. Oct. 25, 2019); LaSpina v. SEIU Pa. State
Council, No. 3:18-2018, 2019 WL 4750423 (M.D. Pa. Sept. 30,
2019); Allen v. Santa Clara Cty. Corr. Peace Officers Ass’n, No.
18-CV-02230, 2019 WL 4302744 (E.D. Cal. Sept. 11, 2019);
Casanova v. Int’l Ass’n of Machinists, Local 701, No. 19-CV00428 (N.D. Ill. Sept. 11, 2019); Ogle v. Ohio Civil Serv. Emp.
Ass’n, No. 18-CV-1227, 2019 WL 3227936 (S.D. Ohio July 17,
2019), appeal pending, No. 19-3701 (6th Cir.); Diamond v. Pa.

App-76
Finally, we reject Plaintiffs’ contention that the
Union must prove that it “fully complied with the preJanus constitutional strictures on agency shops” to
avail itself of a good faith defense. Plaintiffs’ argument
lacks any grounding in the claims presented in this
action. Plaintiffs alleged in their complaint only that
the Union’s collection of compulsory agency fees, as a
general matter, violated their rights under the First
and Fourteenth Amendments. Plaintiffs did not allege
that the Union violated their rights under Abood or
any similar pre-Janus authority. In fact, Plaintiffs

State Educ. Ass’n, No. 18-CV-128, 2019 WL 2929875 (W.D. Pa.
July 8, 2019), appeal pending, No. 19-2812 (3d Cir.); Hernandez
v. AFSCME Cal., No. 18-CV-2419, 2019 WL 2546195 (E.D. Cal.
June 20, 2019); Doughty v. State Emp. Ass’n of N.H., No. 19-CV53 (D.N.H. May 30, 2019), appeal pending, No. 19-1636 (1st Cir.);
Babb v. Cal. Teachers Ass’n, 378 F. Supp. 3d 857 (C.D. Cal. 2019),
appeal pending, No. 19-55692 (9th Cir.); Wholean v. CSEA SEIU
Local 2001, No. 18-CV-1008, 2019 WL 1873021 (D. Conn. Apr.
26, 2019), appeal pending, No. 19-1563 (2d Cir.); Akers v. Md.
Educ. Ass’n, 376 F. Supp. 3d 563 (D. Md. 2019), appeal pending,
No. 19-1524 (4th Cir.); Bermudez v. SEIU Local 521, No. 18-CV4312, 2019 WL 1615414 (N.D. Cal. Apr. 16, 2019); Hough v. SEIU
Local 521, No. 18-CV-4902, 2019 WL 1785414 (N.D. Cal. Apr. 16,
2019), appeal pending, No. 19-15792 (9th Cir.); Lee v. Ohio Educ.
Ass’n, 366 F. Supp. 3d 980 (N.D. Ohio 2019), appeal pending, No.
19- 3250 (6th Cir.); Crockett v. NEA-Alaska, 367 F. Supp. 3d 996
(D. Alaska 2019), appeal pending, No. 19-35299 (9th Cir.); Carey
v. Inslee, 364 F. Supp. 3d 1220 (W.D. Wash. 2019), appeal
pending, No. 19-35290 (9th Cir.); Cook v. Brown, 364 F. Supp. 3d
1184 (D. Or. 2019), appeal pending, No. 19-35191 (9th Cir.). See
also Jarvis v. Cuomo, 660 F. App’x 72 (2d Cir. 2016); Winner v.
Rauner, No. 15-CV-7213, 2016 WL 7374258 (N.D. Ill. Dec. 20,
2016); Hoffman v. Inslee, No. 14-CV-200, 2016 WL 6126016
(W.D. Wash. Oct. 20, 2016).

App-77
devoted several paragraphs of their complaint to an
effort to discredit Abood as controlling authority, so
that their claims might prevail.
Because Plaintiffs’ claims arise from the Union’s
reliance on Abood, not allegations that the Union
flouted that authority, the Union need not show
compliance with Abood’s strictures to assert
successfully a good faith defense. Such a requirement
would be entirely divorced from the allegations in this
action.
IV. CONCLUSION
When the Supreme Court delivered its decision in
Janus, the Union was required to change its policies
to conform to the newly-announced law of the land.
And it did. But the shift in precedent only carries the
plaintiff employees so far. We hold that the Union is
not retrospectively liable for doing exactly what we
expect of private parties: adhering to the governing
law of its state and deferring to the Supreme Court’s
interpretations of the Constitution. A contrary result
would upend the very principles upon which our legal
system depends. The good faith affirmative defense
applies as a matter of law, and the district court was
right to dismiss Plaintiffs’ claim for monetary relief.
AFFIRMED.

